<html>
<title> - EXPLORING THREE STRATEGIES FOR AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-321]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-321
 
                       EXPLORING THREE STRATEGIES 
                            FOR AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-538                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biddle, Dr. Stephen, senior fellow for defense policy, Council on 
  Foreign Relations, Washington, DC..............................    15
    Prepared statement...........................................    16
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     5
Nagl, Dr. John, president, Center for a New American Security, 
  Washington, DC.................................................     7
    Prepared statement...........................................     9
Stewart, Rory, director, Carr Center on Human Rights Policy, 
  Harvard University, Cambridge, MA..............................    24
    Prepared statement...........................................    26

              Additional Material Submitted for the Record

Menendez, Hon. Robert, U.S. Senator from New Jersey, prepared 
  statement......................................................    14

                                 (iii)




               EXPLORING THREE STRATEGIES FOR AFGHANISTAN

                              ----------                              


                     WESNESDAY, SEPTEMBER 16, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Shaheen, Kaufman, Lugar, Corker, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing of the Foreign Relations 
Committee will now come to order.
    Delighted to welcome our distinguished panel, and 
appreciate very much their taking time to come and share this 
first hearing in a series of hearings on the subject of 
Afghanistan.
    I also want to welcome--I am told we have a group of 
members of the Afghan Parliament who are here, and maybe they 
would just stand up and be recognized. Where are they, right 
back here? Thank you very much. We appreciate your being here, 
and we hope that this is helpful to you, as it will be, 
hopefully, to us.
    The future course of our mission in Afghanistan has become 
one of the most important and one of the most difficult 
questions that we face. In the weeks ahead, this committee will 
hold a series of hearings to study the situation in greater 
depth and to weigh our options going forward. I know that all 
of my colleagues on this committee and in Congress take that 
responsibility seriously, and I look forward to using this 
venue to ask some tough questions and, hopefully, to uncover 
some answers together.
    Frankly, I am concerned by where we are today in 
Afghanistan, about the rising number of casualties among our 
troops and those of our allies, about the deeply flawed 
Presidential voting that just took place, about the impunity 
with which drug traffickers have been to operate, and about the 
rampant corruption undermining the faith of Afghans in their 
government and ours. And most of all, I am concerned because, 
at the very moment when our troops and our allies' troops are 
sacrificing more and more, our plan, our path, our progress 
seem to be growing less and less clear.
    Nearly all of us agree that it was right to go into 
Afghanistan when we originally did. There is no such consensus 
about what comes next. The eighth anniversary of our presence 
in Afghanistan approaches at a time of growing doubts about our 
mission, at home and abroad. I've heard some of my colleagues 
express reservations in many different ways about different 
aspects of what we are engaged in, ranging from the size of our 
military commitment, and our Afghan and NATO partners' 
commitment, to what is possible, to fundamental questions about 
the underlying presumptions of our presence there.
    It's very easy to understand why some people have become 
skeptical. We appeared to achieve our key objectives very early 
and very easily. We toppled the Taliban, and we drove out al-
Qaeda's leaders, although obviously the intent was to either 
capture or kill them. But, we didn't drive them very far--only 
a 100 miles or so across the border into Pakistan, from where 
they have been able to organize and perpetuate their activities 
in perhaps as many as 60 countries around the globe.
    Year after year, while many of us warned that our mission 
was not just adrift, but even slipping out of control, the last 
administration's focus was definitively elsewhere; in Iraq. In 
fact, many military people complained to me at various times 
about the diversion of resources and of strategic thinking from 
Afghanistan to Iraq.
    Now the window is closing. Today, we face a tougher foe, a 
more educated foe, in a sense, to our practices, an insurgency 
that has adapted to our tactics and honed its own deadly 
methods. Afghans, who once welcomed Americans with open arms, 
have, in many cases, grown suspicious. American and allied 
populations are suspicious, too. They want a clearer 
explanation of our goals, of our methodology, our plans. And so 
do we, here.
    Each time I visit Afghanistan--and I intend to go again in 
October--I return with a renewed appreciation for our troops. 
In Kunar and Zabul, I have seen the Provincial Reconstruction 
Teams weave their way through the complex web of tribal 
alliances to empower local governments to deliver basic 
services to the Afghan people. I've seen a Navy commander and 
an Army lieutenant colonel directing unbelievable activities, 
engaging in being mayor, psychologist, judge, diplomat, and 
soldier, all at the same time.
    What our troops are doing is extraordinary, and 
extraordinarily difficult. We have an obligation to make 
certain that we give them a strategy that is worthy of their 
sacrifice. President Obama has promised to weigh the 
recommendations of the top commander in Afghanistan--GEN 
Stanley McChrystal--on whether to commit more troops to this 
effort. We don't know what the answer will be. But, we do know 
that August was the deadliest month on record for United States 
troops in Afghanistan.
    We also know, and we know this definitively, that this 
should not become a partisan issue. Democrats and Republicans 
alike can best support the President, and our country, by not 
acting as a rubberstamp. We can help him best by asking tough 
questions, just as he is doing, and partnering with the 
administration to craft policies that reflect the answers.
    Secretary Clinton has committed to testify before the 
committee next month, once the President has finalized some of 
these choices that he faces. And I know that all of my 
colleagues will welcome the chance to further this dialogue 
with her.
    So far, the limited debate has really focused on absolute 
numbers and on different kinds of metrics: How many United 
States and allied troops are required; how many Afghan soldiers 
and police do we need to train; how many more billions do we 
need to invest in a moment of enormous need here at home. Of 
course, no amount of money, no rise in troop levels, and no 
clever metrics will matter if the mission itself is ill-defined 
or ill-conceived. That's why we need to expand the discussion 
to grapple with fundamental questions and examine core 
assumptions. We need to agree on a clear definition of the 
mission and of what is possible. We need to decide what is 
achievable and what is an acceptable goal for the future shape 
of Afghanistan. We need to know the size of the footprint--
military footprint--that that goal will demand. We need to 
weigh the probabilities and the cost of getting there.
    I believe that certain principles must guide this thinking, 
and I will say to you that--there was an interesting article in 
today's Washington Post, and it's one that sort of reflected 
some of the thinking that I and others have shared recently, 
which is--I mean, I recall full well, in 1964 and 1965, being 
one of those troops who responded to the call to augment our 
presence in Vietnam, and there was this constant refrain from 
President Johnson and from General Westmoreland to, you know, 
``Give us more troops. We just need X more, and we'll get the 
job done.'' But, in fact, some of the core assumptions were not 
being examined--about the domino theory, about the nature of 
the civil war, and the structure.
    This is the kind of thinking we need to apply now to this 
challenge. And I believe certain principles must guide our 
thinking.
    First, it will be the Afghans who must ultimately win or 
lose the struggle with the Taliban. We need to ensure that the 
Afghan people feel a sense of ownership, not of occupation.
    Second, as I warned, back in February, in an op-ed piece in 
the Washington Post, we need to recognize that we are in a race 
against time. In a region suspicious of foreign troops, an 
open-ended obligation of large numbers of United States troops 
risks consigning us to the same fate as others who've tried to 
master Afghanistan. No matter how long we remain there, history 
should teach us that there will be no purely military solution 
in that country. What's needed instead is a comprehensive 
strategy, one that emphasizes the need for the right level of 
civilian effort as much as for the right military deployment to 
provide security for that other effort to take hold.
    We must also understand Afghan realities, and recognize the 
decentralized nature of Afghan society. I won't go into it all 
right now, but there is a distinction between Iraq and the 
civil structure that existed in Iraq and the capacity of that 
civil structure, and the system that existed, and the level of 
education, and the commerce, and the development--a clear 
distinction between that and what exists in Afghanistan, one of 
the poorest countries in the world.
    So, we need to understand this decentralized nature of 
Afghan society and the history of its monarchy and its 
relationship to a centralized government, and that requires us, 
I think, to be flexible. Afghanistan is a very diverse place, 
and we need to understand that what works in Mazar-e Sharif, a 
predominantly Uzbek city that fought the Taliban tooth and nail 
in the 1990s, is very different from what works in Kandahar, a 
Pashtun city that welcomed the Taliban with open arms. It also 
requires us to be humble about our ability to bring large-scale 
change to other societies. That was true in Iraq, it remains 
true in Iraq, and it is even more true in Afghanistan. We have 
to weigh our choices against what is possible.
    We also need to consider our mission in Afghanistan in the 
context of a highly volatile and strategically vital region. 
And I emphasize that this is a very important part of our 
thinking--Pakistan, Iran, and other questions. These permeable 
borders are straddled by clans, ethnic groups, and militants, 
where what happens in one country can have profound 
implications for the security of its neighbors. It is also true 
that the Pashtun represent a people divided by an artificial 
line, many years ago by Sir Durand and the British, which was 
drawn right down the center, putting part of them in Pakistan, 
part of them in Afghanistan, but it is a border that they have 
never recognized.
    We also face the continued stability of Pakistan, and those 
issues, a nuclear-armed nation in an existential struggle with 
extremists and insurgents. I might add, Pakistan has made a 
significant advance from where it was a year ago. And where 
many people thought that, in fact, Pakistan was the problem 
without a solution at that point in time, they have been 
surprised by the results. And I think we need to take note of 
that as we think about these mutual implications.
    We also need to set realistic goals. The purpose of our 
mission, is what the President said it was: To prevent 
Afghanistan from becoming a safe haven or sanctuary for al-
Qaeda, and to make sure al-Qaeda is not there in Afghanistan, 
and, therefore, a destabilizing force in the region. I do not 
believe that we are in Afghanistan to create a carbon copy of 
American-style democracy or to impose a strong central 
government in a nation that has never had one. We need to 
ensure that we not only set realistic goals, but also align 
them with our chosen strategy.
    In a week when U.S. commandos killed a top al-Qaeda leader 
in Somalia without a major troop presence, we should be asking 
ourselves, How much counterinsurgency and nation-building are 
required to meet a sufficient set of goals to achieve America's 
objectives with respect to counterinsurgency? And whatever 
approach we decide on, we do need to find a clear set of 
metrics to measure the progress.
    And finally, we need to ask ourselves the questions that 
General Petraeus famously asked in 2003 during the invasion of 
Iraq, How does this end? Supporters and opponents of this war 
should agree, we need to have this discussion. It may be that 
we will decide that there need to be additional troops. I don't 
know the answer to that question until we ask all of these 
other questions. But, we should not do it in a knee-jerk, 
automatic, predisposed way that has not thoroughly examined the 
assumptions and the possibilities. Therefore, this discussion 
is essential. We've already lost 827 Americans in Operation 
Enduring Freedom. We have spent over $200 billion. And all of 
us have attended the funerals and met with families of those 
who have been lost. We have an obligation to make certain that 
their sacrifice is not forgotten, but also not in vain, and 
that we give them a strategy that is worthy of the sacrifice 
they've made.
    For the first time, the Pentagon has requested more war 
funding next year for Afghanistan than for Iraq. It is critical 
for us to communicate a clear goal, and begin to show progress 
toward achieving it. And we risk losing support for our 
mission, not just in Afghanistan, but here at home, if we don't 
undertake that effort.
    Dr. John Nagl is a retired Army lieutenant colonel and 
president of the Center for New American Security. He was 
selected by General Petraeus to coauthor the Army's 
Counterinsurgency Field Manual. And we appreciate him being 
here today.
    Dr. Stephen Biddle is a senior fellow at the Council on 
Foreign Relations, an independent thinker and an incisive 
military analyst. He spent a month in Afghanistan this summer 
as a member of General McChrystal's assessment team.
    And our last witness, Rory Stewart, got the ultimate ground 
education on Afghanistan by walking straight across the country 
from Herat to Jalalabad right after the Taliban's fall. He is 
director of the Carr Center for Human Rights Policy at 
Harvard's Kennedy School, a former British diplomat and 
soldier, an early and eloquent critic of our Afghan strategy. 
So, I welcome you--each of you today, and look forward to your 
testimony.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I'd like to ask permission to 
vote at this point. We're about halfway through the rollcall.
    The Chairman. I think that's wise. And----
    Senator Lugar. And then, as I come back, I'll commence my 
statement, if that's permissible.
    The Chairman. Absolutely. We will--in fact, what I'd like 
to do, because I think it's important for everybody to hear 
your statement, we will recess until we return from this vote.
    And we stand in recess until such time. It will probably be 
about 10 minutes, folks. Thanks.
    We stand in recess.
    [Recess.]
    The Chairman. The hearing will come back to order.
    I apologize to everybody. We had two votes, not one, so it 
took us a little longer, and I apologize to our witnesses and 
those watching.
    Senator Lugar, we look forward to your opening. Thank you.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming our distinguished panel.
    Having reviewed the range of strategies suggested by our 
experts, it's evident that each has his own perspective on 
international military forces in Afghanistan. What they have in 
common is acknowledging the important role for international 
civilian agencies in Afghanistan to help create stability. This 
hearing provides an opportunity to review progress on a key 
asset that I've long sought in our foreign policy efforts, a 
coordinator for reconstruction and stabilization in the State 
Department.
    The story of the development of this office, which began 
under the previous administration and continues today, is a 
discouraging one, unfortunately. Despite the long-evident need 
for a coherent and efficient civilian coordination capacity to 
assist our troops in crisis response, we still don't have one 
and continue to rely solely upon the Defense Department to 
provide personnel, equipment, resources, and ideas.
    In 2003, I convened a series of Policy Analysis Group 
meetings of senior officials from within our government and 
beyond to discuss the appropriate role for civilian agencies in 
post-conflict or crisis situations. Since 1989 and the fall of 
the Berlin Wall, we've been engaged in post-conflict situations 
in the first gulf war, Somalia, Bosnia, Haiti, Kosovo, Iraq, 
Liberia, and, of course, Afghanistan. Each crisis required the 
deployment of technically proficient civilians familiar with 
unstable situations. Each situation was hampered by the 
inability to identify and to deploy such skilled civilians, 
either independently or as part of a multilateral or military 
operation.
    In 2004, then-Senator Biden and I introduced legislation to 
create a civilian reconstruction office, but that legislation 
was not championed initially by the previous administration. 
Belatedly, the value of this effort was recognized, but despite 
the Bush administration's 2009 budget request of $249 million 
to fund the Civilian Stabilization Initiative and the new 
administration's increased 2010 budget request of $323 million 
for the same purposes, Congress has sharply cut these funds.
    As a result, as President Obama determines the strategic 
and tactical approach for Afghanistan and the region, he and 
his commanders and ambassadors are constrained by the inability 
to provide all the tools necessary. Ambassador Holbrooke was 
hired by this administration to improve our policy impact in 
Afghanistan and Pakistan. He determined that he would need a 
team of experts and the means to wield decisionmaking authority 
over human and financial resources. I would have hoped that by 
2009, some 6 years after I broached the idea with then-
Secretary of State Colin Powell, Ambassador Holbrooke could 
turn to the coordinator for reconstruction and stabilization, 
Ambassador John Herbst, and an integrated civilian organization 
capable of assembling a large contingent of specialists. 
Instead, Ambassador Holbrooke concluded the capacity of these 
folks was not sufficient to perform the mission. Ambassador 
Holbrooke has instead established, within his own office of the 
Special Representative for Afghanistan and Pakistan, what is, 
in essence, a central coordinating function for civilian 
agencies involved in the crisis. He's built a team that now 
competes in size with the State Department CRS, and dwarfs that 
entity in its ability to empower and to employ personnel.
    The Department of Defense shares my concern over this gap 
in our civilian post-conflict capabilities. A variety of 
experienced military leaders have said the lack of an effective 
civilian partner is hurting our national interests. Secretary 
Gates has made clear that our national security is as dependent 
upon our foreign assistance budget and authorities as it is on 
our defense budget. Congress must now prioritize these parallel 
budgets and authorities in order to strengthen our 
effectiveness in the realm of diplomacy and defense.
    Afghanistan is the priority our President has identified. 
It is in this engagement that we must provide the civilian 
resources and skills to complement our military effort, 
whatever shape the military posture may take.
    I look forward to hearing our witnesses. And I thank you, 
Mr. Chairman.
    The Chairman. Thank you, Senator Lugar, that's a very 
thoughtful statement, and we appreciate it.
    We're going to start with you, Dr. Nagl, and then Dr. 
Biddle, and finally Rory Stewart. Your full testimonies will be 
placed in the record in full, as if read in full; if you want 
to summarize and give us a little more time to have a dialogue.

 STATEMENT OF JOHN NAGL, PRESIDENT, CENTER FOR A NEW AMERICAN 
                    SECURITY, WASHINGTON, DC

    Dr. Nagl. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Lugar, members of the committee, I 
thank you for the opportunity to appear before you today to 
discuss U.S. strategy in Afghanistan. Achieving an outcome in 
Afghanistan advantageous to our national security interest 
demands a careful appraisal of what America is trying to 
accomplish, and an appreciation for the resources required to 
get there, and I am honored to be there as part of that 
important discussion.
    Preventing the return of the Taliban to control of 
Afghanistan, maintaining stability in Pakistan, and keeping up 
the pressure against al-Qaeda are all objectives very worthy of 
American effort. U.S. policymakers must, of course, weigh all 
strategic actions against America's global interests and 
against our opportunity costs. In Afghanistan and Pakistan, 
low-cost strategies do not have an encouraging track record of 
success, since the initial successes of Operation Enduring 
Freedom. Drone attacks, which are very useful for their ability 
to eliminate Taliban and al-Qaeda leaders, have not prevented 
militant forces from making threatening advances in both 
Afghanistan and Pakistan. The light-footprint option has failed 
to secure U.S. objectives, as the Obama administration and the 
American military leadership have recognized. It is well past 
time for a different approach.
    Preventing Afghanistan from again serving as a sanctuary 
for terrorists with global reach or as the catalyst for a 
broader regional security meltdown are the key objectives of 
our campaign there. Securing these objectives requires helping 
the Afghans to build a sustainable system of governance that 
can adequately ensure stability and security for the Afghan 
people, the keystone upon which a successful exit strategy 
depends.
    While an expanded international commitment of security and 
development forces can assist in the achievement of these goals 
in the short term, ultimately Afghans must ensure security and 
stability in their own country. The development of a state that 
is able to provide a modicum of security and governance to its 
people is necessary to ensure that American security interests 
will be preserved without a major U.S. ground presence. And the 
classic clear-hold-build counterinsurgency strategy offers the 
best way to achieve that objective.
    The first requirement for success in a counterinsurgency 
campaign is the ability to secure the population, but at 
present there are insufficient Afghan soldiers and police to 
implement that approach by holding areas that had been cleared 
of insurgents by United States and international forces. As a 
result, American troops have had to clear the same areas 
repeatedly, paying a price for each operation, both in American 
lives and in Afghan public support, which suffers each time we 
clear and leave. More United States combat soldiers are 
required now to implement a clear, hold, and build 
counterinsurgency strategy, but, over time, responsibility must 
transition to the Afghans to secure their own country.
    Ultimately, therefore, much of the focus on the direct 
counterinsurgency role of United States forces should shift to 
a focus on developing Afghan security forces. The preexisting 
numerical targets for the development of Afghan security forces 
are not based on the actual security requirements for the 
country. The current end-strength targets for the Afghan 
National Army and National Police are 134,000 and 82,000 
respectively, about half what would be required to provide 
adequate security in a war-torn country of over 30 million 
people with very rough terrain. The United States should 
initiate a greater international effort to expand the Afghan 
national security forces. If that means the U.S. Government and 
the international community has to pay for them, then so be it. 
Doing so will be far cheaper than maintaining substantial 
numbers of American and international forces in Afghanistan for 
an even longer period of time to do the jobs that Afghans 
should do. Building Afghan security forces will be a long-term 
effort that will require United States and international 
assistance and advisers for many years.
    Security must come first, but these wars are not only won 
with bullets, so a renewed U.S. commitment to development 
assistance must also be initiated. And Senator Lugar has 
mentioned the fact that we simply don't have the expeditionary 
capability we need in the civilian agencies of government here 
in this country, and therefore, I'm afraid, much of that burden 
for development will have to continue to be borne by the U.S. 
military.
    In particular, I'd like to highlight the contributions of 
the National Security Program in Afghanistan, perhaps the best 
investment of dollars we've made there. Ultimately, the NSP is 
an important step toward the defeat of the insurgency, which we 
will see when the Afghan people know that a non-Taliban 
political order can offer them a modicum of security and 
governance.
    St. Augustine teaches us that the purpose of war is to 
build a better peace, but America built nothing in Afghanistan 
after the Soviet withdrawal, and the Taliban filled the vacuum. 
Afghanistan became the vipers' nest in which al-Qaeda grew, and 
the United States paid a heavy price for its strategic neglect 
of Afghanistan.
    Over the next 5 years, we want to create an Afghanistan 
from which al-Qaeda has been displaced and from which we can 
continue to attack its remnants. By that point, the Government 
of Afghanistan should be able, with only minimal external help, 
to secure itself from internal threats like the Taliban or the 
return of al-Qaeda. It should have the support of its people, 
earned through reduced corruption and the provision of a 
reasonable level of government services, particularly security 
and an improving economy, and it should be determined to never 
again provide a safe haven for terror. These are difficult 
tasks, but the American military has a long history of 
demonstrating that ``hard'' is not ``impossible'' as long as 
the American people stand behind it.
    Thank you very much.
    [The prepared statement of Dr. Nagl follows:]


   Prepared Statement of Dr. John Nagl, President, Center for a New 
                   American Security, Washington, DC

    Mr. Chairman, Senator Lugar, and members of the committee, I thank 
you for the opportunity to appear before you today to discuss U.S. 
strategy in Afghanistan. Achieving an outcome in Afghanistan 
advantageous to our national security interests demands a careful 
appraisal of what America is trying to accomplish and an appreciation 
for the resources required to get there.\1\
---------------------------------------------------------------------------
    \1\ This testimony draws upon John A. Nagl, ``A Better War in 
Afghanistan,'' to be published in Joint Force Quarterly in November 
2009. The author thanks Brian M. Burton of the Center for a New 
American Security for his assistance in the preparation of this 
testimony.
---------------------------------------------------------------------------
   the ends: no sanctuary for terrorists and no regional meltdown \2\
    Coalition forces invaded Afghanistan in the fall of 2001 with the 
objective of toppling the Taliban government and defeating al-Qaeda. 
The Bonn Agreement and subsequent accords expanded Afghan and coalition 
aims far beyond these original objectives. After 7 years of strategic 
drift, coalition efforts have failed to persuade many Afghans that it 
is wise or safe to defy the Taliban.\3\ Just as ominously, the 
prolonged nature of the conflict, mounting casualties and financial 
costs, and the lack of demonstrable progress have combined to weaken 
popular support for the mission in many NATO nations, even in the 
United States. But the fact that progress has been hampered by confused 
strategy and insufficient resources is an indictment of the conduct of 
this war, not its objectives. It does not mean that the campaign in 
Afghanistan is fruitless or that America's interests in this part of 
the world are unimportant.
---------------------------------------------------------------------------
    \2\ This section draws upon Nathaniel C. Fick, David Kilcullen, 
John A. Nagl, and Vikram J. Singh, ``Tell Me Why We're There? Enduring 
Interests in Afghanistan (and Pakistan),'' Center for a New American 
Security Policy Brief, 22 January 2009; and John A. Nagl, ``Surge In 
Afghanistan Can Work, With Right Resources, Enough Time,'' U.S. News 
and World Report, 23 February 2009.
    \3\ Ann Scott Tyson, ``In Helmand, Caught Between U.S., Taliban; 
`Skittish' Afghans Wary of Both Sides,'' The Washington Post, August 
15, 2009.
---------------------------------------------------------------------------
    The primary objective of American efforts in Pakistan and 
Afghanistan remains the elimination of the al-Qaeda-associated 
sanctuaries and, if possible, top leaders that support transnational 
terrorist operations. Originally based in Afghanistan but squeezed by 
allied military operations, many in this shadowy alliance have shifted 
to Pakistan's cities and frontier areas, beyond easy reach of the 
coalition. American efforts now focus on Pakistan as a launching pad 
for transnational terrorists and insurgents fighting in Afghanistan. 
But the problem runs both ways: A failed Afghanistan would become a 
base from which Taliban and al-Qaeda militants could work to further 
destabilize the surrounding region. Al-Qaeda and the Afghan Taliban 
have served as an inspiration and sometime-ally of violent extremist 
groups targeting resource-rich states of Central Asia.\4\ More 
dangerously, they also have ties to the insurgents seeking to overthrow 
Pakistan, and the ultimate prize in that contest would be not another 
ridge or valley, but possibly access to the Pakistani nuclear arsenal. 
An unraveling, whether gradual or unexpectedly rapid, of Pakistan in 
the face of the Taliban insurgency could spark a cascading regional 
meltdown and lead to nuclear arms falling into the hands of a terrorist 
group that would use them against the United States or its allies. This 
is, to be sure, widely considered a low-probability event, but the 
security of Pakistan's nuclear weapons is hardly clear and U.S. 
visibility into events there is fairly low.\5\
---------------------------------------------------------------------------
    \4\ See Ahmed Rashid ``Taliban: Militant Islam, Oil, and 
Fundamentalism in Central Asia'' (New Haven, CT: Yale University Press, 
2001) and Ahmed Rashid, ``Jihad: The Rise of Militant Islam in Central 
Asia'' (New York: Penguin Books, 2003).
    \5\ See David Sanger, ``Obama's Worst Pakistan Nightmare,'' New 
York Times Magazine, January 11, 2009.
---------------------------------------------------------------------------
    Because these threats of terrorist sanctuary and regional 
instability emanate from territory shared by Pakistan and Afghanistan, 
Pakistan must be encouraged to confront terrorism within its borders 
and curtail its military's clandestine support for extremist factions. 
Stepping back America's commitment to the theater would be a 
particularly odd choice at the present time, given the recent 
improvement in Pakistani efforts to conduct counterinsurgency against 
its own radical elements and in American-Pakistani intelligence-
sharing. The course of 2009 has seen dramatic changes in the Pakistani 
willingness to wage war against insurgents who increasingly threaten 
the survival of the government. In that sense, the alarming advances of 
Taliban-aligned forces in Pakistan during the early months of 2009 
proved to be something of a blessing in disguise: The militants' 
attacks into heartland provinces like Swat and Buner galvanized a 
previously indifferent Pakistani public and military to stand up to the 
militants and drive them back.\6\ This is momentum toward that the 
United States should seek to encourage while working to overcome 
decades of Pakistani mistrust of an America that has not been perceived 
as a reliable or supportive partner.
---------------------------------------------------------------------------
    \6\ See Haider Ali Hussein Mullick, ``Lions and Jackals: Pakistan's 
Emerging Counterinsurgency Strategy,'' Foreign Affairs (online only), 
July 15, 2009, http://www.foreignaffairs.com/articles/65191/haider-ali-
hussein-mullick/lions-and-jackals.
---------------------------------------------------------------------------
    Following the Soviet withdrawal from Afghanistan in the late 1980s, 
the United States curtailed virtually all of its assistance to Pakistan 
and was perceived by a generation of Pakistani leaders as having 
abandoned the region. In sharp contrast to the close security 
relationship that prevailed for the preceding decade, Washington 
quickly moved to distance itself from engagement and support of 
Pakistan, culminating in decisions to impose sanctions and ban 
military-to-military exchanges with Pakistan over its nuclear weapons 
programs and tests. Pakistani leaders, military officers, and policy 
elites have not forgotten these events, and our actions ensured that 
U.S. policymakers lost one of our most significant sources of 
understanding and levers of influence over events in the region for a 
generation.\7\ The improving but still fragile relationship of 
cooperation on counterterrorism and counterinsurgency would be damaged 
by an American pullback now: The Pakistani leadership would be further 
convinced that the United States cannot be relied upon and encouraged 
to maintain its ties to Islamist militant groups as a strategic hedge, 
both dangerous developments from a U.S. national security standpoint.
---------------------------------------------------------------------------
    \7\ See, for example, Hussain Haqqani, ``Pakistan: Between Mosque 
and Military'' (Washington, DC: Carnegie Endowment for International 
Peace, 2005), 282-99.
---------------------------------------------------------------------------
    Preventing the return of the Taliban to control of Afghanistan, 
maintaining stability in Pakistan, and keeping up the pressure against 
al-Qaeda are objectives worthy of American effort. U.S. policymakers 
must, of course, weigh all strategic actions against America's global 
interests and possible opportunity costs. But in Afghanistan and 
Pakistan, the low-cost strategies do not have an encouraging track 
record of success since the initial success of Operation Enduring 
Freedom. After the fall of the Taliban regime in 2001, the United 
States sought to limit its own involvement by working by, with, and 
through militia or tribal commanders to provide security and mop up the 
remaining al-Qaeda presence. But in many cases this approach empowered 
these commanders to act abusively and unaccountably, which alienated an 
Afghan population that had been promised a new ``Marshall Plan'' by the 
United States and thereby facilitated the Taliban's reemergence as an 
insurgency against the new government and international presence.\8\ 
Drone attacks, which have been highly touted for their ability to 
eliminate Taliban and al-Qaeda leaders,\9\ have certainly killed 
numerous terrorists and insurgents. But they have not prevented 
militant forces from making threatening advances in both Afghanistan 
and Pakistan. This is not to say that drone strikes or alliances of 
convenience with tribal and militia commanders should not have a role 
in the U.S. campaign, but neither should form the primary basis for our 
strategy going forward. The ``light footprint'' option has failed to 
secure U.S. objectives; as the Obama administration and the U.S. 
military leadership have recognized, it is well past time for a 
different approach.
---------------------------------------------------------------------------
    \8\ See Antonio Giustozzi, ``Koran, Kalashnikov, and Laptop: The 
Neo-Taliban Insurgency in Afghanistan'' (New York: Columbia University 
Press, 2008), 15-21.
    \9\ See Greg Miller, ``U.S. Missile Strikes Said to Take Heavy Toll 
on Al Qaeda,'' Los Angeles Times, March 22, 2009.
---------------------------------------------------------------------------
                 toward a ``better war'' in afghanistan
    Preventing Afghanistan from again serving as a sanctuary for 
terrorists with global reach or serving as the catalyst for a broader 
regional security meltdown are the key objectives of the campaign 
there. Securing these objectives requires helping the Afghans to build 
a sustainable system of governance that can adequately ensure security 
for the Afghan people--the keystone upon which a successful exit 
strategy depends. In order to achieve this objective, the coalition and 
its Afghan partners must seek to build a state that reconciles some 
degree of centralized governance with the traditional tribal and 
religious power structures that hold sway outside Kabul. An internal 
balance between centralized and traditional power centers--not central 
government control everywhere--is a practical basis for assuring the 
country's stability, much as it was in the years prior to the Soviet 
invasion. Achieving these minimal goals will require more military 
forces, but also a much greater commitment to good governance and to 
providing for the needs of the Afghan people where they live. The 
coalition will need to use its considerable leverage to counter Afghan 
Government corruption at every level.
    While an expanded international commitment of security and 
development forces can assist in the achievement of these goals in the 
short term, ultimately Afghans must ensure stability and security in 
their own country. The development of a rudimentary state, even a 
highly flawed one, that is able to provide a modicum of security and 
governance to its people is necessary to ensure that American security 
interests will be preserved without a major U.S. ground presence. The 
successful implementation of a better-resourced effort to build Iraqi 
security forces, after years of floundering, is now enabling the 
drawdown of American forces from that country as Iraqi forces 
increasingly take responsibility for their own security; a similar 
situation will be the definition of success in Afghanistan, some years 
from now.
    The ``clear, hold, and build'' counterinsurgency model was 
relearned over several painful years in Iraq, but at present there are 
insufficient Afghan soldiers and police to implement that approach by 
holding areas that have been cleared of insurgents. As a result, 
American troops have had to clear the same areas repeatedly--paying a 
price for each operation in both American lives and in Afghan public 
support, which suffers from Taliban reprisals whenever we ``clear and 
leave.''
    These lessons are well-understood, but the question remains whether 
U.S., NATO, and Afghan forces can execute them. The paucity of Afghan 
security forces relative to U.S. Marines involved in the summer 2009 
offensive in Helmand province was troubling and indicative of a 
security force assistance effort that has not been taken seriously 
enough for much of the past 8 years.\10\ After an area is cleared of 
insurgents, it must be held by Afghan troops supported by international 
advisers and combat multipliers, including artillery and air support. 
These operations are intended to create the conditions that facilitate 
Afghan central government reconciliation with traditional local power 
structures to establish better-secured communities that ``freeze out'' 
future Taliban infiltration. Since the additional troops we have 
deployed in 2009 won't be enough to secure the whole country, ISAF and 
Afghan commanders will have to select the most important population 
centers, such as Kandahar, to secure first. These ``oil spots'' of 
security will then spread over time as more Afghan forces come online 
and gain more competence.
---------------------------------------------------------------------------
    \10\ See Rajiv Chandrasekaran, ``A Fight for Ordinary Peace,'' 
Washington Post, July 11, 2009.
---------------------------------------------------------------------------
    Ultimately, therefore, much of the focus on the direct 
counterinsurgency role of U.S. forces should shift over time to a clear 
focus on developing Afghan security forces. More U.S. soldiers are 
required now to implement a ``Clear, Hold, and Build'' 
counterinsurgency strategy, but over time responsibility must 
transition to the Afghans to secure their own country. If the first 
requirement for success in a counterinsurgency campaign is the ability 
to secure the population, the counterinsurgent requires boots on the 
ground and plenty of them.
    The long-term answer is a significantly expanded, and more 
effective, Afghan security apparatus. The preexisting numerical targets 
for the development of Afghan security forces are not based on the 
actual security requirements for the country. The current end strength 
targets for the Afghan National Army and National Police are 134,000 
and 82,000 men, respectively--not nearly enough to provide adequate 
security in a war-torn country of over 30 million people with very 
rough terrain. The Obama administration's interagency policy review 
team recommended a substantial expansion of the effort to build these 
forces up to those prescribed end strengths, but that will not be 
sufficient.\11\ Some argue that the international community should not 
develop an Afghan security force larger than what that country's 
economy can support. Under peacetime conditions that concern would be 
important, but basing our security force assistance efforts on the 
Afghan economy rather than a realistic estimate of the numbers needed 
to impose a reasonable level of security is not the appropriate course 
of action now. The United States should initiate a greater 
international effort to expand the Afghan national security forces. If 
that means the U.S. Government and the international community has to 
help pay for them, that is what should be done--it will still be far 
cheaper than maintaining substantial numbers of American and 
international forces in Afghanistan for an even longer period of time 
to do the jobs that Afghans should do.
---------------------------------------------------------------------------
    \11\ The White House, ``White Paper of the Interagency Policy 
Group's Report on U.S. Strategy Toward Afghanistan and Pakistan,'' 
March 27, 2009, 3.
---------------------------------------------------------------------------
    Building Afghan security forces will be a long-term effort that 
will require U.S. and international assistance and advisers for many 
years. Unfortunately, the advisory mission has long been treated as a 
low priority in practice if not in rhetoric, with advisory teams being 
assembled in an ad hoc fashion and provided with insufficient training 
and resources before deploying.\12\ The Obama administration has 
bolstered the effort with the deployment of 4,000 additional troops to 
serve as advisors.\13\ But it remains unclear whether the U.S. 
military--and our government as a whole--has truly cracked the code on 
effectively developing host nation security forces. It is as important 
to address the qualitative problems with the current security force 
assistance program as it is to solve the quantitative ones. Combined 
Security Transition Command-Afghanistan (CSTC-A) must be reviewed to 
ensure that it has the best organization and sufficient capacity to do 
its job. The advisory effort must have access to the most talented and 
experienced personnel available--not just those left over after the 
regular units have picked first. It must be structured in a way that 
incorporates best practices for security force assistance and is most 
suited to the specific demands of the Afghan operating environment--not 
simply assembled in the fashion that is most convenient for America's 
existing unit structure. It must focus on developing an Afghan security 
force that can fulfill the mission of countering the insurgency and 
providing a sufficient, if imperfect, level of internal security--not 
on mirror-imaging the force structure of a more advanced Western army 
dedicated to external defense. And ultimately the entire effort must be 
judged on the quality of its outputs--professional, competent, reliable 
Afghan forces--rather than simply how many armed men in uniform come 
out of its training centers, an approach that clearly produced poor 
results in the first 4 years of the Iraq war.
---------------------------------------------------------------------------
    \12\ See Captain Daniel Helmer, ``Twelve Urgent Steps for the 
Advisor Mission in Afghanistan,'' Military Review, July/August 2008, 
73-81.
    \13\ The White House, ``Remarks by the President on a New Strategy 
for Afghanistan and Pakistan,'' transcript, March 27, 2009, http://
www.whitehouse.gov/the_press_office/Remarks-by-the-President-on-a-New-
Strategy-for-Afghanistan-and-Pakistan/.
---------------------------------------------------------------------------
    The United States and ISAF also need to get smarter about the way 
they engage Afghan communities at the local level. Insurgencies can be 
won or lost at the local level because securing the support of the 
population requires understanding the specific issues that cause it to 
sympathize with one side or another. Additionally, insurgencies are 
rarely monolithic: they comprise numerous local factions and 
individuals fighting for personal gain, revenge against real or 
perceived slights, tribal loyalties, or other reasons that may have 
little to do with the insurgency's professed cause. The Afghan 
insurgency is no different in this regard.\14\ The Taliban is an 
amalgam of local fighters and mercenary and criminal elements around a 
hard core of committed jihadists; according to one detailed study, 
approximately 40-50 percent of the insurgency is made up of ``local 
allies'' fighting for tribal causes or opportunism.\15\
---------------------------------------------------------------------------
    \14\ See Ganesh Sitaraman, ``The Land of 10,000 Wars,'' The New 
York Times, 16 August 2009.
    \15\ Antonio Giustozzi, ``Koran, Kalashnikov, and Laptop,'' 42-43.
---------------------------------------------------------------------------
    Based on such analyses, U.S. commanders are interested in trying to 
``flip'' less ideological factions and promoting the development of 
local self-defense militias to encourage the Afghan tribes to defend 
against Taliban infiltration.\16\ Exploiting divisions within an 
insurgency paid dividends in Iraq, where the emergence of Anbar 
Awakening and Sons of Iraq played a major role in crippling al-Qaeda in 
Iraq (AQI) and dramatically reducing violence. Again, this is a simple 
concept that is much harder in practice. Thus far, the insurgency has 
proven less susceptible to cooptation than its fragmented nature might 
suggest, partly because U.S. overtures have been limited and partly 
because the Taliban still holds a level of legitimacy in certain parts 
of the country. Even in the case of Iraq, the more secular insurgents 
did not turn against the extremists until they were sufficiently 
alienated by AQI's brutal tactics and disregard for local customs.\17\ 
The Taliban's leadership may not make the same mistakes.
---------------------------------------------------------------------------
    \16\ See Fontini Christia and Michael Semple, ``Flipping the 
Taliban,'' Foreign Affairs, July/
August 2009.
    \17\ See John A. McCary, ``The Anbar Awakening: An Alliance of 
Incentives,'' The Washington Quarterly, January 2009, 43-59; David 
Kilcullen ,``The Accidental Guerrilla,'' (New York: Oxford University 
Press, 2009), 158-76.
---------------------------------------------------------------------------
    This experience suggests that emphasizing tribal engagement or 
``flipping'' less committed insurgents is not a panacea that will 
enable the United States to achieve a modicum of security in 
Afghanistan on the cheap. Local communities are unlikely to turn in 
favor of ISAF and the Afghan Government until these entities 
demonstrate that they are fully willing and able to drive out the 
insurgents and provide some level of lasting security and competent 
(read: Less corrupt) governance. They won't resist the Taliban or help 
the security forces as long as the insurgency appears to hold the upper 
hand while the government remains weak at best and abusive at worst. 
Seizing the initiative from the Taliban and reestablishing the 
political order's legitimacy requires securing the population and 
developing a sophisticated, nuanced understanding of local communities, 
particularly the conflicts within them that insurgents can exploit to 
their own ends. Simply targeting militant leaders and foot soldiers and 
then leaving won't solve the problem, because local populations know 
that the insurgents will just go underground to avoid U.S. strikes and 
then reemerge to take vengeance on those who collaborate with the 
government once the security forces move on. Security forces that just 
pass through on sweeps and raids will not gain the local knowledge 
necessary to understand the particular drivers of the insurgency within 
the community nor the ability to identify when that community is being 
infiltrated by outside militants. Attempts to reassert central 
government authority without a clear grasp of local power structures 
and relationships will only engender more popular resentment against 
Kabul that plays directly into the hands of the Taliban. In short, 
until the Afghan Government, the United States, and ISAF get their 
approach to local communities right, those communities will not 
decisively turn against the insurgency. That means, of course, that 
while developing anti-Taliban tribal militias and coopting nonextremist 
elements of the insurgency will be aspects of the new Afghanistan 
strategy, they cannot be its primary components.
    Cultivating a limited Afghan state apparatus that is legitimate in 
the eyes of its citizens and works with, rather than against, local 
communities is a more important element of the American approach to 
Afghanistan. Since 2001, presented with an Afghan central government 
whose presence at the local level has often been either absent, 
incompetent, or corrupt, the international community has turned 
increasingly toward nongovernmental organizations for the delivery of 
services. Yet this approach rarely strengthens the perceived legitimacy 
of the government in the very communities whose loyalty to the 
government is being contested. A renewed U.S. commitment to funding 
grassroots development and governance in Afghanistan must accompany the 
influx of troops. The Afghan Government's National Solidarity Program 
(NSP) and other programs like it deserve much more American 
support.\18\ The NSP has become one of the government's most successful 
rural development projects. Under the program, the Afghan Ministry of 
Rural Rehabilitation and Development (MRRD) disburses modest grants to 
village-level elected organizations called Community Development 
Councils (CDCs), which in turn identify local priorities and implement 
small-scale development projects. A limited number of domestic and 
international nongovernmental organizations (NGOs) then assist the 
CDCs. Once a CDC agrees on a venture, $200 per family (with a ceiling 
of $60,000 per village) is distributed for project execution. Afghans 
contribute 10 percent of project costs through cash, labor, or other 
means.
---------------------------------------------------------------------------
    \18\ This discussion of the NSP draws upon John Nagl, Andrew Exum, 
and Ahmed A. Humayun, ``A Pathway to Success in Afghanistan: The 
National Solidarity Program,'' Center for a New American Security 
Policy Brief, 16 March 2009.
---------------------------------------------------------------------------
    Under this model, the NSP has built schools for thousands of 
children, constructed village water pumps that save many hours of 
labor, and assembled irrigation networks that have enabled far higher 
agricultural yields. More than 12,000 village development councils have 
been elected, more than 19,000 project plans have been approved, and 
nearly half of these projects have already been completed. The NSP is 
the only government program functioning in all 34 provinces, and it has 
affected nearly two-thirds of Afghanistan's rural population. Moreover, 
women--whose inclusion is a mandatory component of the program--
constitute 35 percent of the elected CDC representatives.
    The NSP provides one example of how to establish positive links 
between the Afghan people and the government in Kabul, and there are 
undoubtedly other models that might offer success stories of their own. 
The point is that the insurgency and the international security threat 
it represents will not be defeated simply with armed force, drone 
strikes, and alliances of convenience with certain factions, although 
all of those things will play a part. It will ultimately be defeated 
when the Afghan people see tangible evidence that a non-Taliban 
political order that really can offer them a modicum of security and 
governance.
                 conclusion: learning from our mistakes
    The United States played a role in creating the Taliban and al-
Qaeda: They grew and thrived amidst the chaos that followed the Soviet 
withdrawal and subsequent international neglect. Saint Augustine taught 
that ``the purpose of war is to build a better peace,'' but America 
built nothing in Afghanistan after the Soviet withdrawal, and the 
Taliban filled the vacuum that its inaction allowed. Afghanistan became 
the viper's nest in which al-Qaeda grew, and the United States paid a 
price for its inattention and strategic neglect of the region.
    After the success of a lightning campaign that overthrew the 
Taliban and chased al-Qaeda out of Afghanistan, American policy toward 
the country returned to one of benign neglect. Too few soldiers to 
secure the population, too little development assistance poorly 
coordinated, and too little attention to the Pakistan side of the 
Durand Line allowed the Taliban to regroup, gain strength, and return 
to threaten the young Afghan Government that we created but did not 
adequately support, particularly in the development of an Afghan Army 
large enough to secure itself from its (and our) enemies.
    The objectives of American policy in Afghanistan are clear, 
although they have not been articulated as clearly as they should have. 
Over the next 5 years, we want to create an Afghanistan from which al-
Qaeda has been displaced and from which it continues to suffer 
disruptive attacks. The Government of Afghanistan should be able, with 
minimal external help, to secure itself from internal threats like the 
Taliban or the return of al-Qaeda; it should have the support of its 
people, earned through the provision of a reasonable level of 
government services (particularly security and an improving economy) 
and reduced corruption, and be determined to never again provide a safe 
haven for terror.
    The question now is not how to achieve our goals in Afghanistan and 
Pakistan--we know the answer to that question. The only remaining 
question is whether America has the will to do what is necessary, or 
whether we are again determined to abandon this supposedly 
``unimportant'' region of the world in the hope that this time it won't 
blow up in our face.

    Senator Menendez. Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Menendez. Mr. Chairman----
    The Chairman. Senator.
    Senator Menendez [continuing]. If I may. Mr. Chairman, 
unfortunately I have to go to the State Department, and, 
between votes and everything, I don't know if I'll get back for 
the hearing, so, I'd ask unanimous consent to include my 
opening statement in the record, expressing my alarm at the 
escalation that is proposed, as well as our focus of our policy 
initiatives.
    The Chairman. Without objection, that will be made part of 
the record. And I think the people listening at the State 
Department heard you say ``unfortunately you have to go down 
there,'' so----
    [Laughter.]
    [The prepared statement of Senator Menendez follows:]

   Prepared Statement of Hon. Robert Menendez, U.S. Senator From New 
                                 Jersey

    Thank you, Chairman Kerry, for this important hearing, and I would 
like to thank all the witnesses for coming here today to discuss this 
important topic. I believe Afghanistan is a critical issue in our 
overall foreign policy and that our ability to work with the 
international community to successfully achieve sustainable stability 
in both Afghanistan and Pakistan will be a key component to the success 
of our overall foreign policy in the Middle East and our broader 
efforts against terrorism.
    I want to express my alarm with the prospect of a significant 
buildup of U.S. forces in Afghanistan without a clear strategy and 
metrics for success. I think we need to have a clear sense of what we 
intend to accomplish, how we intend to accomplish it, and when we will 
know if we have in fact accomplished it.
    Thank you, Chairman Kerry, for your attention to this issue and I 
look forward to working with all the members of the committee on this 
moving forward.

    The Chairman. Dr. Biddle.

STATEMENT OF STEPHEN BIDDLE, SENIOR FELLOW FOR DEFENSE POLICY, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Biddle. Thank you, Mr. Chairman. I'd also like to thank 
the committee for this opportunity to speak with you on an 
issue that's obviously of vital national importance.
    There are many important questions before the Nation with 
respect to Afghanistan. Maybe the most important of them is 
also the most fundamental of them: Is the war worth waging? The 
written testimony that is submitted to the record provides my 
answer in more detail, but my bottom line from the statement, 
is that I think the case for waging war in Afghanistan is a 
very close call on the merits. I think the war is neither the 
obvious necessity that many of its strongest proponents argue, 
nor the clear loser that some war opponents see it to be. I 
think this conflict engages important, but indirect, U.S. 
interests, and I think failure is not predetermined. On the 
other hand, it'll clearly be a very costly war to wage; and, 
while failure isn't guaranteed, neither is success; and the 
result of that, I think, is a war that isn't an open-and-shut 
case, on analytic grounds, either for or against. The case for 
war, as a result, in this instance, turns on a value judgment 
about excepting cost and risk.
    For me, this balance of cost and risk suggest a close call, 
but a war worth waging. Reasonable people, though, are going to 
differ on close calls of this kind. And I think, in many ways, 
the most important conclusion that analysis can offer is that 
what we face here is inevitably a hard choice between 
unattractive alternatives on either side that, at the end of 
the day, turns on issues that cannot completely be resolved by 
analysis alone. There is no easy way out of Afghanistan, either 
way, in 2009.
    With the remainder of my time, having summarized where I 
come out, I want to pick up one particularly important aspect 
of the problem, though, and that's the issue of the interests 
we have at stake in the conflict.
    There are many things to which we aspire for Afghanistan, 
as we would for any country in the international system. We 
would like Afghanistan to be ruled in accordance with the will 
of the governed. We would like Afghanistan to respect the 
rights of minorities and women. We would like Afghanistan's 
children to be educated and its people to be prosperous. 
Normally speaking, we pursue these objectives through means 
other than the waging of war.
    When it comes to pursuing U.S. interests abroad that 
warrant the waging of war, there is typically a much narrower 
subset of the things we hope for, for a country, that are 
considered pertinent. And I think, with respect to Afghanistan, 
those are largely twofold: First, that the country not be a 
base for striking the United States or our allies in the West; 
and second, that the country not be a base for destabilizing 
its neighbors, and especially Pakistan.
    Of these two interests, the first is the more talked about, 
and, I believe, the second is the more important. Afghanistan 
obviously can be a base for striking the United States. It was 
in 2001, it could be again; but, so can many other places. So 
could Yemen. So could Somalia. So could Djibouti. So could 
potentially dozens of ill-governed spaces in South Asia, the 
Middle East, sub-Saharan Africa, or even Latin America. If we 
are going to adopt a systematic strategy of deploying multiple 
brigades of American combat forces to deny al-Qaeda potential 
havens, we are going to run out of brigades a long time before 
al-Qaeda runs out of havens. This is an important concern, but 
it's not one that, in my view, constitutes a particularly 
strong argument for waging war in Afghanistan.
    But, while Afghanistan is not unique as a base for striking 
the United States, it is unique as a basis for destabilizing 
the region, and especially Pakistan, where it is located 
precisely across the Durand Line. Pakistan is a clear vital 
national security interest of the United States, for reasons 
that I don't need to articulate to this committee. Moreover, 
Pakistan, an actual ongoing nuclear weapons state, is in the 
midst of an active insurgency against a collection of 
heterogeneous insurgent groups, some of which are closely 
aligned with the Quetta Shura Taliban and other factions that 
we're fighting in Afghanistan. Should we fail in the 
undertaking in Afghanistan, we run the risk of creating a 
substantial base for a variety of insurgent groups whose 
relationships with one another are complex, but potentially 
dangerous, to destabilize a Pakistani state, whose security is 
vital to the United States.
    Note, however, that the more important of these two 
interests is, thus, an indirect U.S. interest. What we care 
about most is Pakistan. Our ability to directly influence what 
happens in Pakistan, however, has important limits on it. We 
cannot deploy 60,000 American soldiers to Pakistan to assist 
them in a counterinsurgency campaign. We are politically 
radioactive in Pakistan. Our ability to affect events directly 
there has very important limits on it. Our aid can be 
redirected in ways that we wouldn't like. Our influence is very 
partial.
    In a situation in which we see a country whose future is 
terribly important to the United States, but whose fate we have 
a very limited ability to deal with and affect directly, 
perhaps the best strategy for us is to invoke the Hippocratic 
Oath, and at least do no harm. And it seems to me that one 
important way in which we could do harm for the prospects for 
stability in Pakistan is by failing in our undertaking in 
Afghanistan and allowing chaos, or a potential Taliban version 
2.0 regime in Kabul, to be a source of instability for an 
already dangerous and difficult situation on the other side of 
the Durand Line.
    Thank you.
    [The prepared statement of Dr. Biddle follows:]

  Prepared Statement of Dr. Stephen Biddle, Senior Fellow for Defense 
          Policy, Council on Foreign Relations, Washington, DC

    The war in Afghanistan had been nearly invisible to the public 
since 2001-02, but this is rapidly changing. In the process, basic 
questions have reemerged in a very different light than they assumed 
when this war began. What was once the ``good war'' to defeat a clear 
and present danger from a state that harbored al-Qaeda has now become a 
much more ambiguous struggle to preserve a deeply flawed successor 
government from an insurgency allied with, but separate from, an al-
Qaeda that is now based across the border in Pakistan. Is this more 
complex conflict still worth waging?
    The answer is a close call on the merits. The debate often treats 
Afghanistan in absolutes: It is either a graveyard of empires in which 
no outsider can succeed and a country where we have no meaningful 
interests at stake; or it is a war where victory can be assured if we 
show sufficient resolve and where only success can avert a direct 
threat of attack on the American homeland. In fact it is a harder call. 
This war is neither the obvious necessity that its strongest supporters 
claim, nor the clear loser that its opponents typically see. The war 
engages important, but indirect, U.S. interests. It will be expensive 
to wage properly, will require many years to resolve, and might 
ultimately fail even if waged vigorously, but failure is not guaranteed 
and the United States enjoys advantages that other outsiders in 
Afghanistan have not.
    Most defense decisions are ultimately value judgments on how much 
risk we find tolerable and what price we are willing to pay to reduce a 
risk. The war in Afghanistan poses this problem more starkly than most 
given the scale of the costs and risks on both sides of the ledger 
here. Analysis can illuminate the costs and identify the risks, but 
especially in close calls it cannot predetermine value judgments on how 
much cost to bear and how much risk to accept. What the analysis shows 
here is that this ledger is close enough for reasonable people to 
differ. For me, the balance of cost and risk suggests a war that is 
worth waging, but only barely. What is clearest, however, is that 
neither the case for the war nor the case against it is beyond 
challenge or without important counterarguments.
    I present this argument in four parts: The interests at stake; the 
war's likely costs; the prospects for success in securing the interests 
if the costs are borne; and finally an assessment of the overall 
balance of cost and risk in light of this.
                 u.s. interests at stake in afghanistan
    The United States has many aspirations for Afghanistan, as we would 
for any country. Americans would like Afghanistan to be ruled in 
accordance with the will of the governed; we would like to see minority 
and women's rights respected; we would like to see its youth educated 
and its people prosperous. But while we surely wish these things for 
any state, we do not ordinarily wage war to bring them about. The U.S. 
national security interests that might warrant war to achieve here are 
much narrower.
    In fact, they are essentially twofold: That Afghanistan not become 
a base for terrorism against the United States, and that chaos in 
Afghanistan not destabilize its neighbors, especially Pakistan. Neither 
of these two primary security interests can be dismissed, but both have 
limits as casus belli.
    The first interest is the most discussed--and the weakest argument 
for waging war. The United States invaded Afghanistan in the first 
place to destroy the
al-Qaeda safe haven there, and Afghanistan's role in the 9/11 attacks 
clearly justified this. But al-Qaeda central is no longer based in 
Afghanistan, nor has it been since early 2002. Bin Laden and his core 
operation are, by all accounts, now based across the border in 
Pakistan's Federally Administered Tribal Areas (FATA). The Taliban 
movement in Afghanistan is clearly linked with al-Qaeda and sympathetic 
to it, but there is little evidence of al-Qaeda infrastructure within 
Afghanistan today that could threaten the U.S. homeland in any direct 
way. If today's Afghan Government collapsed, if it were replaced with a 
neo-Taliban regime, or if the Taliban were able to secure real 
political control over some major contiguous fraction of Afghan 
territory then perhaps al-Qaeda could reestablish a real haven there.
    But this risk is shared with a wide range of other weak states in 
many parts of the world, from Yemen to Somalia to Djibouti to Eritrea 
to Sudan to the Philippines or even parts of Latin America or Central, 
West, or North Africa, among other possibilities. And of course Iraq 
and Pakistan fit the description of weak states whose failure could 
provide havens for al-Qaeda. Many of these--and especially Iraq and 
Pakistan--offer bin Laden prospects superior in important ways to 
Afghanistan's. Iraq and Pakistan, for example, are richer and far 
better connected to the outside world than is primitive, land-locked 
Afghanistan with its minimal communications and transportation systems. 
Iraq is an Arab state in the very heart of the Middle East. Pakistan, 
of course, is a nuclear power. Afghanistan does enjoy a historical 
connection with al-Qaeda, familiarity to bin Laden, and proximity to 
his current base in the FATA, and it is important to deny al-Qaeda 
sanctuary on the Afghan side of the Durand Line. But its intrinsic 
importance is no greater than many other potential havens--and probably 
smaller than many. We clearly cannot afford to wage protracted warfare 
with multiple brigades of American ground forces simply to deny al-
Qaeda potential safe havens; we would run out of brigades long before 
bin Laden ran out of prospective sanctuaries.
    The more important U.S. interest in Afghanistan is indirect: To 
prevent Afghan chaos from destabilizing its Pakistani neighbor. With a 
population of 173 million (five times Afghanistan's), a GDP of over 
$160 billion (over 10 times Afghanistan's) and an actual, existing, 
functional nuclear arsenal of perhaps 20-50 warheads, Pakistan is a 
much more dangerous prospective state sanctuary for al-Qaeda, and one 
where the likelihood of government collapse enabling such a sanctuary 
may be in the same ballpark as Afghanistan, at least in the medium to 
long term. Pakistan is already at war with internal Islamist insurgents 
allied to al-Qaeda, and by most measures that war is not going well. 
Should the Pakistani insurgency succeed in collapsing the state or 
toppling the government, the risk of nuclear weapons falling into al-
Qaeda's hands would be grave indeed. In fact, given the difficulties 
terrorists face in acquiring usable nuclear weapons, Pakistani state 
collapse is the likeliest scenario for a nuclear-armed al-Qaeda.
    Pakistani state collapse, moreover, is a danger over which the 
United States has limited influence. The United States is now so 
unpopular in Pakistan that we have no meaningful prospect of deploying 
major ground forces there to assist the government in 
counterinsurgency. U.S. air strikes can harass insurgents and 
terrorists within Pakistan, but the inevitable collateral damage 
arouses harsh public opposition that could itself threaten the weak 
government's stability. U.S. aid is easily--and routinely--diverted to 
purposes remote from countering Islamist insurgents, such as the 
maintenance of military counterweights to India, graft and patronage, 
or even support for Islamist groups seen by Pakistani authorities as 
potential allies against their Indian neighbor. U.S. assistance can--
and should--be made conditional on progress in countering insurgents, 
but harsh conditionality can induce rejection of the terms, and the 
aid, by the Pakistanis, removing U.S. leverage in the process. The net 
result is a major threat over which Americans have very limited 
influence.
    If the United States has few ways to make Pakistan any better, the 
best policy may be to invoke the Hippocratic Oath: at least do no harm. 
With so little actual leverage, the United States cannot afford to make 
the problem any worse than it already is. And failure in Afghanistan 
would make the problem in Pakistan much harder.
    The Taliban are a transnational Pashtun movement that is active on 
either side of the Durand Line and sympathetic to other Pakistani 
Islamist insurgents. Their presence within Pakistan is thus already an 
important threat to the regime in Islamabad. But if the Taliban 
regained control of the Afghan state or even a major fraction of it, 
their ability to use even a poor state's resources as a base to 
destabilize secular government in Pakistan would enable a major 
increase in the risk of state collapse there. Much has been made of the 
threat Pakistani base camps pose to Afghan Government stability, but 
this danger works both ways: Instability in Afghanistan poses a serious 
threat to secular civilian government in Pakistan. And this is the 
single greatest stake the United States has in Afghanistan: To prevent 
it from aggravating Pakistan's internal problems and magnifying the 
danger of an al-Qaeda nuclear sanctuary there.
    These stakes are thus important. But they do not merit infinite 
cost to secure. Afghanistan is just one of many possible al-Qaeda 
sanctuaries. And Afghanistan's influence over Pakistan's future is 
important, but incomplete and indirect. A Taliban Afghanistan is a real 
possibility in the long run absent U.S. action, and makes Pakistani 
collapse more likely, but it does not guarantee it. Nor would success 
in Afghanistan guarantee success in Pakistan: There is a chance that we 
could struggle our way to stability in Afghanistan at great cost and 
sacrifice only to see Pakistan collapse anyway under the weight of its 
own errors and internal divisions.
                                the cost
    What will it cost to defeat the Taliban? No one really knows; war 
is an uncertain business. But it is very hard to succeed at 
counterinsurgency (COIN) on the cheap. Current U.S. Army doctrine is 
very clear on this:

          [M]aintaining security in an unstable environment requires 
        vast resources, whether host nation, U.S., or multinational. In 
        contrast, a small number of highly motivated insurgents with 
        simple weapons, good operations security, and even limited 
        mobility can undermine security over a large area. Thus, 
        successful COIN operations often require a high ratio of 
        security forces to the protected population. For that reason, 
        protracted COIN operations are hard to sustain. The effort 
        requires a firm political will and substantial patience by the 
        government, its people, and the countries providing support.\1\
---------------------------------------------------------------------------
    \1\ ``The U.S. Army-Marine Corps Counterinsurgency Field Manual'' 
(Chicago: University of Chicago Press, 2007), (republication of: 
Headquarters, Department of the Army, ``FM 3-24: Counterinsurgency''), 
p. 4.
---------------------------------------------------------------------------
          Insurgencies are protracted by nature. Thus, COIN operations 
        always demand considerable expenditures of time and 
        resources.\2\
---------------------------------------------------------------------------
    \2\ Ibid., p. 43.

    A proper analysis of troop requirements for Afghanistan is a more 
complex undertaking than can be provided here; GEN McChrystal's staff 
is now producing such an assessment. But it is safe to say that most 
counterinsurgency theorists see COIN as an extremely labor-intensive 
form of warfare. In fact, the doctrinal norm for troop requirements in 
COIN is around 1 security provider per 50 civilians in the population 
to be secured.\3\ If one simply applies the doctrinal rule of thumb to 
Afghanistan, a state of roughly 32 million people, this crude yardstick 
would imply a need for perhaps 640,000 trained soldiers and police. 
Many argue that the doctrinal density need not be maintained across the 
entire country; it is widely believed, for example, that the north and 
west of the country are safer than the south and east. And of course a 
sound estimate of resource needs would require a much more 
discriminating mapping of troop needs to specific tasks in specific 
places. But it is clear that COIN in a country the size of Afghanistan 
can be very demanding of resources. Ideally most of these security 
forces would be indigenous Afghans rather than foreign troops. But some 
will clearly have to be Americans and other foreigners. And the 
commitment could be very long: Successful counterinsurgency campaigns 
commonly last 10 to 15 years or more.\4\
---------------------------------------------------------------------------
    \3\ Ibid., p. 23.
    \4\ Seth Jones, ``Counterinsurgency in Afghanistan,'' (Washington, 
DC: RAND, 2008), p. 10.
---------------------------------------------------------------------------
    At least initially, the casualties to be expected from such an 
effort would also be heavy. In Iraq, a force of 130,000-160,000 U.S. 
troops averaged over 90 fatalities per month during the most intense 
period of COIN operations in January to August of 2007. Depending on 
the troop strength ultimately deployed and the intensity of the 
fighting, it is not implausible to suppose that casualty rates in 
Afghanistan could approach such levels. And it may well take longer for 
those losses to reverse and decline in Afghanistan than in Iraq; it 
would be prudent to assume that fatality rates in excess of 50 per 
month could persist for many months, if not years.\5\
---------------------------------------------------------------------------
    \5\ The financial costs are also likely to be large. The 
Congressional Research Service estimates that the war in Afghanistan 
cost $34 billion in FY 2008, and projects that this figure will 
increase in coming years: Amy Belasco, ``The Cost of Iraq, Afghanistan 
and other Global War on Terror Operations Since 9/11'' (Washington, DC: 
Congressional Research Service, October 15, 2008), RL33110, pp. 6, 19.
---------------------------------------------------------------------------
                          the odds of success
    The aggregate historical record of great power success in COIN is 
not encouraging. The political scientists, Jason Lyall of Princeton and 
Isaiah Wilson of West Point, estimate that since 1975, the success rate 
of all government counterinsurgents has been just 25 percent.\6\ Given 
the costs of trying, this average offers a sobering context.
---------------------------------------------------------------------------
    \6\ Jason Lyall and Isaiah Wilson, ``Rage Against the Machines: 
Explaining Outcomes in Counterinsurgency Wars,'' International 
Organization, Vol. 63, No. 1 (Winter 2009), pp. 67-106 at 69-71. For 
all counterinsurgencies since 1900, they find a government success rate 
of 40 percent; hence the odds have been getting worse over time. See 
also Ivan Arreguin-Toft, ``How the Weak Win Wars: A Theory of 
Asymmetric Conflict,'' International Security, Vol. 26, No. 1, pp. 93-
128, and Arreguin-Toft, ``How the Weak Win Wars: A Theory of Asymmetric 
Conflict,'' (New York: Cambridge University Press, 2005), which finds 
``strong actors'' winning only 45 of 100 asymmetric conflicts between 
1950 and 1998: p. 97.
---------------------------------------------------------------------------
    Nor are current conditions in Afghanistan encouraging. Orthodox 
COIN theory puts host government legitimacy at the heart of success and 
failure, yet the Karzai government is widely seen as corrupt, inept, 
inefficient, and en route to losing the support of its population. The 
recent election's results are not yet clear, but widely reported 
electoral fraud could easily reduce Karzai's perceived legitimacy if he 
is ultimately declared the winner of a disputed contest. Economic and 
political development prospects are constrained by Afghanistan's 
forbidding geography, tribal social structure, lack of infrastructure, 
and political history. The Taliban enjoy a cross-border sanctuary in 
the FATA that the Pakistani Government seems unwilling or unable to 
eliminate. Violence is up, perceptions of security are down, casualties 
are increasing, and the Taliban is widely believed to be increasing its 
freedom of movement and access to the population. And only some of 
these challenges are things Americans can affect directly: The United 
States can increase security by deploying more U.S. troops, it can 
bolster the economy to a degree with U.S. economic aid, and it can 
pressure Karzai to reform, but only the Afghans can create a legitimate 
government, and only the Pakistanis can shut down the safe havens in 
the FATA. Americans can influence these choices to a much greater 
degree than we have so far. But the United States cannot itself 
guarantee Afghan reform, and to date neither ally seems ready to do 
what it takes.
    But this does not make failure inevitable. The poor track record 
for COIN overall is due partly to the inherent difficulty of the 
undertaking, but most analysts also believe that many counterinsurgents 
have made poor strategic choices, and that these poor choices have been 
major contributors to failure. Strategies and methods can be changed--
it is possible to learn from experience. And the U.S. military has 
learned a great deal about COIN in recent years.
    The new Army/Marine counterinsurgency doctrine, for example, is the 
product of a nearly unprecedented degree of internal debate, external 
vetting, historical analysis, and direct recent combat experience.\7\ 
None of this makes it a magic silver bullet for COIN success, and in 
important ways it makes underlying assumptions about the nature of 
counterinsurgency that made it an awkward fit for conditions in 
Iraq.\8\ But those same assumptions make it a much stronger fit for 
Afghanistan, which is precisely the kind of war the manual was built 
around. And there is some, albeit preliminary, empirical evidence to 
suggest that the new doctrine's emphasis on population security as 
opposed to insurgent attrition has been substantially more successful 
historically than more-violent, attrition-oriented strategies: Andrew 
Enterline and Joseph Magagnoli, for example, estimate that since World 
War II, COIN strategies emphasizing population security over insurgent 
attrition have succeeded almost 70 percent of the time.\9\
---------------------------------------------------------------------------
    \7\ On the vetting and development process, see ``U.S. Army-Marine 
Corps Counterinsurgency Field Manual,'' pp. xlvii-xlviii.
    \8\ In particular, the doctrine presumes an ideological struggle 
for the allegiance of an uncommitted public, rather than a highly 
mobilized ethnosectarian war of identity, as Iraq has been: for 
details, see Jeffrey Isaac, editor, ``The New U.S. Army/Marine Corps 
Counterinsurgency Field Manual as Political Science and Political 
Praxis,'' Perspectives on Politics, Vol. 6, No. 2 (June 2008), pp. 347-
50 at 349-50.
    \9\ See Andrew Enterline and Joseph Magagnoli, ``Is the Chance of 
Success in Afghanistan Better Than a Coin Toss?'' Foreignpolicy.com 
[accessed on August 27, 2009 at http://www.
foreignpolicy.com/articles/2009/08/27/
is_the_chance_of_success_in_afghanistan_better_
than_a_coin_toss].
---------------------------------------------------------------------------
    One of the doctrine's remaining shortcomings, moreover, is a 
problem the Obama administration seems likely to address. The published 
doctrine assumes a very close alignment of interests between the United 
States and its host government: The manual assumes that the U.S. role 
is to enable the host to realize its own best interest by making itself 
into a legitimate defender of all its citizens' well-being, and that 
the host will see it this way, too.\10\ In many ways, the Bush 
administration shared this view, offering assistance with few 
conditions or strings on the assumption that developing its allies' 
capacity for good governance was all that would be needed to realize 
better performance. In fact, though, many allies--notably including 
Hamid Karzai and Pervez Musharraf, have had much more complex interests 
that have led them to misdirect U.S. aid and fall far short of U.S. 
hopes for their popular legitimacy. Some students of counterinsurgency 
have thus emphasized the need for conditionality in outside assistance 
to reduce this problem of moral hazard: The U.S. should not assume that 
allies share all its interests, and Americans should impose conditions, 
and combine carrots with sticks in order to push reluctant hosts toward 
behavior that could better realize U.S. interests in their broader 
legitimacy and thereby damp insurgencies.\11\ The Obama administration 
has made it very clear that they intend to combine bigger carrots with 
real sticks in the form of prospective aid withdrawals should the 
recipients fail to adopt needed reforms. This is an important step 
forward in competing for hearts and minds via effective host 
governance.
---------------------------------------------------------------------------
    \10\ See, for example, ``U.S. Army-Marine Corps Counterinsurgency 
Field Manual,'' pp. 7-8, 25, 35, 37-39, 47 (e.g., paragraph 1-147: 
``Support the Host Nation'').
    \11\ For a more extensive discussion, see, esp., Daniel Byman, 
``Friends Like These: Counterinsurgency and the War on Terrorism,'' 
International Security, Vol. 31, No. 2 (Fall 2006), pp. 79-115.
---------------------------------------------------------------------------
    The U.S. military forces that implement this doctrine are also much 
improved over their ancestors in Vietnam, or even their immediate 
predecessors in Iraq in 2003-2004--and they are vastly superior in 
training, equipment, and doctrine to the Soviet military that failed in 
Afghanistan in the 1980s. Soviet methods in the 1980s made lavish use 
of indiscriminate firepower that created enemies much faster than it 
killed insurgents. Soviet troops, moreover, were so poorly trained and 
motivated that their commanders were often forced to use elite commando 
units to carry out routine missions; regular Soviet infantry often 
could not be relied upon to do much more than passive garrison duty. 
And Soviet equipment was almost entirely designed for major warfare 
against NATO in central Europe--the Soviets never made a systematic 
decision to reequip for counterinsurgency.\12\ By contrast, the U.S. 
military of 2009 has adapted into an unusually proficient 
counterinsurgency force. It did not begin the war this way, but hard 
experience in Iraq, coupled with an almost preclusive training emphasis 
on COIN since the early years of the Iraq war, a new doctrine with a 
heavy focus on the population-defense methods that have proven most 
effective historically, and systematic reequipment with new mine-
resistant armored vehicles and other ground-force equipment designed 
for counterinsurgency has produced a vastly more effective military for 
this mission than the Soviets ever fielded.
---------------------------------------------------------------------------
    \12\ On Soviet methods in Afghanistan, see, e.g., Lester Grau, 
``The Bear Went over the Mountain: Soviet Combat Tactics in 
Afghanistan'' (New York: Routledge, 1998), 2nd ed.; Gregory Feifer, 
``The Great Gamble: The Soviet War in Afghanistan'' (New York: 
HarperCollins, 2009).
---------------------------------------------------------------------------
    Perhaps most important, the United States is blessed with deeply 
flawed enemies in Afghanistan. Afghans know the Taliban; they know what 
life was like under their rule. And polling has consistently suggested 
that few Afghans want to return to the medieval theocracy they endured 
before. Most Afghans want education for their daughters; they want 
access to media and ideas from abroad; they want freedom from thugs 
enforcing fundamentalism for all under the aegis of a Ministry for the 
Promotion of Virtue and the Prevention of Vice. Of course, these 
preferences are secondary to the need for security. And many are 
secondary to the desire for basic services such as courts free of 
corruption or police who enforce the laws without demanding bribes 
first. But because most Afghans oppose Taliban rule, the United States 
and its allies enjoy a strong presumption in favor of the Afghan 
Government as long as that government can be made to provide at least 
basic services competently. The Taliban face an inherently uphill 
battle to secure compliance with their policies that even a modestly 
proficient government does not. And in a struggle for hearts and minds 
this is an important advantage.
    The Taliban, moreover, are far from a unified opposition group. In 
fact, to refer to the opposition in Afghanistan via a singular noun is 
in many ways a misnomer. By contrast with the Viet Cong of 1964, for 
example, where a common ideology bound the leadership together and 
linked it to its fighters, the neo-Taliban of 2009 are a much looser, 
much more heterogeneous, much more divided coalition of often fractious 
and very independent actors. There is a hard core of committed Islamist 
ideologues, centered on Mullah Omar and based in Quetta. But by all 
accounts much of the Taliban's actual combat strength is provided by an 
array of warlords and other factions with often much more secular 
motivations, who side with the Taliban for reasons of profit, prestige, 
or convenience, and who may or may not follow orders from the Quetta 
Shura leadership. Americans often lament the challenges to unity of 
effort that flow from a divided NATO command structure, but the Taliban 
face difficulties on this score at least as severe and potentially much 
worse: No NATO member is going to change sides and fight for the 
Taliban, but the Taliban need to be constantly alert lest one or more 
of their component factions leave the alliance for the government side. 
And this makes it difficult for the Taliban to mount large-scale, 
coordinated offensives of the kind that would be needed to conquer a 
defended city, for example--such efforts would be hard for any one 
faction or any one commander to accomplish without closely coordinated 
assistance from others, yet such coordination can be hard to achieve in 
such a decentralized, factionalized leadership structure.
    The Taliban also face major constraints in extending their 
influence beyond their ethnic base in southern and eastern Afghanistan. 
The Taliban is an overwhelmingly Pashtun movement. Yet Pashtuns make up 
less than 45 percent of Afghanistan's population overall, and 
constitute only a small fraction of the population outside the south 
and east. Afghanistan is not primarily an ethnosectarian war of 
identity, as Iraq has been--most Taliban are Pashtuns, but most 
Pashtuns are not Taliban (in fact the government is itself headed by a 
Pashtun in President Hamid Karzai). Afghanistan is a war fought over 
the Taliban's ideology for governing, not the hope for a Pashtun 
government. But whereas the government has members from many ethnic 
groups and a presumptive claim to the loyalty of all citizens, the 
Taliban has a much more exclusivist identity and is especially 
unpopular and unwelcome outside its geographic ethnic base. This in 
turn will make it harder for them to conquer the north and west of the 
country, and acts as a limiter on their expansion in the near term. 
This is not to say that the north or west of Afghanistan are 
permanently or inherently secure; on the contrary, recent trends there 
are worrisome, and even these parts of the country will eventually 
require attention to stabilize. But the Taliban's Pashtun ethnic 
identity makes it harder for them to expand out of the south and east, 
and this in turn buys time and reduces resource requirements for 
effective counterinsurgency nationally. (It is worth noting that even 
in their first rule, the Taliban never completely secured the north--it 
was the unconquered ``Northern Alliance's'' hold over contiguous 
territory in that part of Afghanistan that provided allies, a base, and 
a jumpoff point for the American Special Forces who teamed with them to 
topple the Taliban in 2001.)
    Finally, by all accounts the enemy in Afghanistan today is much 
less numerous than that faced by the Soviets, for example, in the late 
1980s. Intelligence estimates on insurgents' order of battle are always 
imprecise and uncertain. But most sources suggest that the Mujaheddin 
opposing the Soviets by the late 1980s numbered around 150,000 armed 
combatants.\13\ After 1986, these guerillas were also equipped with 
increasingly sophisticated Western-supplied arms, and especially 
shoulder-fired precision guided antiaircraft missiles. By contrast, the 
Taliban today are usually assessed at a strength of 20-40,000 fighters, 
of whom only around one-fourth are full-time combatants, and who have 
to date deployed little or no precision weaponry.\14\ The size of the 
insurgent force is not necessarily the most important variable in COIN, 
but against the commonplace assumption that the Soviet experience will 
be America's fate in Afghanistan, we must keep in mind that the 
situation the United States faces is less dire in important respects--
including the strength of the insurgent enemy.
---------------------------------------------------------------------------
    \13\ See, e.g., Olivier Roy, ``Islam and the Resistance in 
Afghanistan'' (Cambridge: Cambridge University Press, 1990), pp. 171, 
176.
    \14\ For estimates of Taliban combatant strength, see David 
Kilcullen, ``The Accidental Guerilla: Fighting Small Wars in the Midst 
of a Big One'' (New York: Oxford University Press, 2009), pp. 48-49; 
Antonio Giustozzi, ``Koran, Kalashnikov, and Laptop: The Neo-Taliban 
Insurgency in Afghanistan'' (New York: Columbia University Press, 
2008), pp. 33, 35, 68.
---------------------------------------------------------------------------
                               assessment
    Withdrawal advocates certainly have a case. The stakes are not 
unlimited. The costs of pursuing them are high. And there is no 
guarantee that even a high-cost pursuit of COIN in Afghanistan will 
succeed given the inherent difficulties of the undertaking and the 
particular challenges of this theater in 2009.
    But while success is not guaranteed, neither is failure. Some 
governments succeed in COIN, and the familiar comparisons of today with 
the Soviets in Afghanistan or the United States in Vietnam pit apples 
against oranges: In 2009, the U.S. military is much more proficient, 
and the Taliban insurgency much less so, than their forebears. Great 
powers do not always fail in COIN; the United States is an unusually 
experienced counterinsurgent force today; the Taliban have serious 
problems of their own; and astute strategic choices can make an 
important difference. This combination gives the United States an 
important possibility for successful counterinsurgency.
    Moreover, U.S. withdrawal poses important risks, too--and 
especially, it could easily cause an Afghan Government collapse with 
potentially serious consequences for U.S. security. The Taliban's 
weaknesses make it hard for them to overthrow a U.S.-supported 
government while large Western military forces defend it. But without 
those Western troops, the Afghan state would offer a much easier 
target. Even with over 50,000 Western troops in its defense, the Karzai 
government has proven unable to contain Taliban influence and prevent 
insurgents from expanding their presence; if abandoned to its fate the 
government would surely fare much worse. Nor would an orphaned Karzai 
regime be in any position to negotiate a compromise settlement that 
could deny the Taliban full control: With outright victory within their 
grasp, it is hard to see why the Taliban would settle for anything less 
than a complete restoration.
    A Taliban restoration would put the resources of a state at their 
disposal. Even the resources of a weak state would enable a major 
increase in funding, freedom of operation, training opportunities, 
planning capacity, recruitment potential, and military staging, 
refitting, reconstitution and resupply for cross-border operations. The 
result could afford al-Qaeda with an improved sanctuary for attacking 
the United States. But even if it did not, it would almost certainly 
afford Pashtun militants and their allies in Pakistan with a massive 
sanctuary for destabilizing the regime in Islamabad, and thereby create 
a major increase in the threat to the Pakistani Government and the 
security of its nuclear arsenal. Even without a state haven in 
Afghanistan, Pakistani insurgents might ultimately topple the 
government in Islamabad, but with the additional resources of an openly 
sympathetic state across the Durand Line this threat is even more 
dangerous. And this threat constitutes one of the few really plausible 
pathways by which al-Qaeda could obtain a useable nuclear weapon.
    This danger is real, but it is not unlimited and should not be 
exaggerated. For a U.S. withdrawal to result in a nuclear al-Qaeda 
would require a chain of multiple intervening events: A Taliban 
restoration in Kabul, collapse of secular government in Islamabad, and 
loss of control over the Pakistani nuclear arsenal (or deliberate 
transfer of weapons by sympathetic Pakistanis). None of these events 
are certainties, and the compound probability is inherently lower than 
the odds of any one step taken alone. Though these odds are hard to 
estimate, analysts such as John Mueller make a persuasive case that 
terrorists are more likely to fail in their efforts to obtain nuclear 
weapons than they are to succeed, and the series of setbacks needed for 
a U.S. withdrawal from Afghanistan to yield a useable al-Qaeda nuclear 
capability probably implies a compound likelihood that is low in 
absolute terms.\15\
---------------------------------------------------------------------------
    \15\ John Mueller, ``Overblown: How Politicians and the Terrorism 
Industry Inflate National Security Threats, and Why We Believe Them'' 
(New York: Free Press, 2006); idem, ``How Dangerous are the Taliban? 
Why Afghanistan is the Wrong War,'' ForeignAffairs.com, April 15, 2009; 
for a debate on this issue, see Paul Pillar, Fawaz Gerges, Jessica 
Stern, James Fallows, and John Mueller, ``Are We Safe Yet?'' 
ForeignAffairs.com, September 7, 2006.
---------------------------------------------------------------------------
    But U.S. withdrawal increases all the probabilities at each stage. 
And the consequences for U.S. security if the chain does play itself 
out are very severe. Unlike the Soviet Union in the cold war (or even 
contemporary states such as Iran),
al-Qaeda may be much less susceptible to deterrence, and considerably 
more likely to use a nuclear weapon if they acquire it. One need not 
accept ``one percent doctrines'' or other extremist versions of nuclear 
threat-mongering to be concerned with the consequences of a potential 
al-Qaeda nuclear capability.\16\ Nor does it resolve the issue simply 
to find that al-Qaeda is ``unlikely'' to acquire nuclear weapons even 
if the Karzai government falls. When the stakes are high, even low 
probabilities of true disasters can be too high to accept: Most 
Americans buy life insurance in a society in which the risk of death in 
a given year is less than one-half of one percent for 45-54-year-olds; 
it is clearly not unreasonable to consider accepting costs to address 
low-probability events.\17\ If a nuclear al-Qaeda were impossible or 
virtually so, then the prospect could simply be ignored. But otherwise 
the issue inevitably comes back to a difficult value judgment on risk 
tolerance. This is not a new problem. After all, a central feature of 
U.S. security policy throughout the cold war was America's willingness 
to expend large resources to reduce the odds of unlikely events: A 
Soviet bolt-from-the-blue nuclear strike was surely never very likely, 
but the consequences if it ever did happen would have been so severe 
that the nation accepted huge costs to reduce the odds of such a 
disaster from low to very low. Americans have long debated whether this 
judgment was wise. But there is considerable precedent for American 
governments, of both parties, displaying enough concern with unlikely 
but dangerous scenarios to expend great effort to reduce the odds.
---------------------------------------------------------------------------
    \16\ See Ron Susskind, ``The One Percent Doctrine: Deep Inside 
America's Pursuit of its Enemies Since 9/11'' (New York: Simon and 
Schuster, 2006). Susskind argues that Vice President Cheney held that 
any risk of a nuclear attack greater than one percent should be treated 
as a certainty for purposes of U.S. policy.
    \17\ On the death rate for 45-54 year olds, see M.P. Heron, D.L. 
Hoyert, J.Q. Xu, C. Scott, and B. Tejada-Vera, ``Deaths: Preliminary 
Data for 2006,'' National Vital Statistics Report, Vol. 56, No. 16 
(2008), Table 1; on the rate of life insurance ownership among 
Americans, see Anna Sachko Gandolfi and Laurence Miners, ``Gender-Based 
Differences in Life Insurance Ownership,'' The Journal of Risk and 
Insurance, Vol. 63, No. 4 (1996), pp. 683-693 at 691.
---------------------------------------------------------------------------
    The net result is thus a difficult value judgment between 
unattractive alternatives, rather than a clear cut, open-and-shut case 
on analytical grounds. In this context, analysis can exclude certain 
popular but overstated positions: In fact, COIN in Afghanistan is not 
hopeless; the United States is not without important interests in the 
conflict; to secure these interests does not require a modern, 
centralized, Westernized Switzerland of the Hindu Kush; conversely, 
success is not guaranteed if only we are resolute; U.S. interests in 
Afghanistan are not unlimited; and the most important U.S. interests in 
the conflict are indirect and concern Pakistan more than Afghanistan 
per se. Analysis can also establish that the likely costs of pursuing 
COIN success will be high, and it can illuminate the causal pathways by 
which different outcomes can affect U.S. interests in general, or the 
danger of a nuclear al-Qaeda in particular. But with important costs 
and risks on both sides of the ledger, the answer for how much cost is 
worth bearing for what reduction in risk is ultimately a value judgment 
rather than an analytical finding. This is not a judgment on the value 
of American lives or the moral worthiness of sacrifice or resolve. 
Either course here involves risks to American lives--a choice to 
withdraw is neither more nor less humanitarian, neither more nor less 
respectful of sacrifice or service or others' suffering, than the 
opposite. Rather, the judgment here is between accepting greater 
casualties and sacrifices in the nearer term to reduce some probability 
of higher casualties and sacrifices in the longer term. For me, this 
balance is a close call but ultimately favors the waging of war in 
Afghanistan. But reasonable people can differ on such judgments. 
Perhaps the most important conclusion is instead that the choice is 
unavoidably hard: What analysis can show is that there is no course 
open to us that is without important downsides--there is no easy way 
out of Afghanistan for the United States in 2009.

    The Chairman. Thank you very much, Dr. Biddle. Very 
important and competent summary of the challenge, and we'll 
come back to it.
    Rory Stewart, thank you again for being here. I failed to 
mention your wonderful book that I enjoyed, ``The Places In 
Between.'' And we look forward to your testimony.

   STATEMENT OF RORY STEWART, DIRECTOR, CARR CENTER ON HUMAN 
        RIGHTS POLICY, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Mr. Stewart. Thank you all very, very much----
    The Chairman. Can you pull the mike, and make sure----
    Mr. Stewart. Thank you all very much, indeed, for having 
me.
    One of the bewildering elements in trying to develop policy 
for Afghanistan at the moment is the very large number of 
justifications which are being put forward at the moment for 
our presence, so that there are people, recently, who have been 
justifying our presence in terms of elections, in terms of 
human rights; some who justify our presence in terms of the 
credibility of the United States, the notion that we can't be 
seen to be defeated, even if we can't win.
    The administration's policy, however, focusing on 
counterterrorism, and I just want to very quickly address Dr. 
Biddle's statements about Pakistan.
    It's very dangerous, I think, to mount an argument or 
justification for our presence in Afghanistan based on our 
interests in Pakistan. The relationships between those two 
countries is, at best, as Dr. Biddle says, indirect. It's far 
from clear that the most cost-effective way of deploying United 
States resources to address Pakistan is for an attempt to build 
a state in Afghanistan or defeat the Taliban in Afghanistan. In 
fact, if we had more time, you could make a number of arguments 
why United States operations in Afghanistan may, in fact, 
contribute to the destabilization of Pakistan.
    In reality, the attempt to create an Afghanistan/Pakistan 
strategy seems to me a little bit as though we've gone into a 
room with an angry cat and a tiger--the angry cat being 
Afghanistan and the tiger being Pakistan--and we're beating the 
cat. And when you say, ``Why are you beating the cat?'' the 
answer is, ``Oh, it's a cat/tiger strategy. It's an 
Afghanistan/Pakistan strategy.'' But, in fact, you're beating 
the cat because you don't know what to do about the tiger. And 
the connection between those two countries is somewhat 
indirect.
    So, to come to the administration's policy, a very minimal 
target has been set of counterterrorism, and a very maximal 
definition of how to achieve it. In other words, the 
administration is suggesting that the way to achieve the 
counterterrorist objective, is through the building of a state 
and through a counterinsurgency campaign.
    I believe the problem with this theory lies in the fact 
that neither of those two means are achievable. We are neither 
going to be able to defeat the Taliban through a 
counterinsurgency campaign, nor is the United States or its 
allies in a position to build a legitimate, effective, stabile 
Afghan state. The reason for believing this relies on an 
understanding of the lack of capacity in the Afghan Government, 
demonstrated most dramatically recently, of course, through the 
elections, but demonstrated also through the lack of progress 
over the last 7 years. Our counterinsurgency policy, based, as 
Dr. Nagl said, on a notion of ``clear, hold, build,'' 
unfortunately owes too much to an inaccurate analogy with Iraq. 
Iraq has, in its government in Baghdad, mass political parties 
behind al-Maliki. The Sunni tribes who've been driven out of 
many areas of Baghdad; they felt under pressure, they were 
coming to us, asking for assistance. Essentially, Iraqi 
politics drove the success of the surge. Those political forces 
are lacking in Afghanistan. In addition, it's a much more rural 
country. It is completely implausible that, in a country about 
the size of Texas, with 20,000 villages, we would be able, in 
effect, to garrison the country; in other words, to clear and 
hold it. Even were we to be able to clear and hold it, the 
build element is extremely implausible. There simply are not 
the resources within the Afghan Government or the Afghan state 
to imagine that we would be able, in any realistic timeframe, 
to create the kind of economic growth, governance, or stability 
which this project imagines.
    What, then, should we do? Well, I believe we should try to 
adopt a much more modest position. The danger facing, I 
believe, the United States and the international community, at 
the moment, is that we're going to lurch from troop increases 
to withdrawal, from engagement to isolation. What worries me 
most about the increase in troops is that it's going to create 
an unsustainable footprint on the ground. We already are in a 
problem with public opinion. Our commitment, our will, and our 
resources are limited. Afghan history suggests that the very 
worst thing you can do for a country like Afghanistan, is to 
attempt to go from electroshock therapy with huge amounts of 
resources one year to none the next year. And yet, I fear, 
that's where we may end up being in 5 or 10 years if we insist 
on these kinds of immoderate increases. A light footprint is a 
more sustainable footprint. That footprint should focus on just 
two things: a very narrow counterterrorist objective, which 
does not require the troop deployments that we're talking 
about, and the humanitarian objective of contributing, in the 
way that we do in many other countries, to making Afghanistan 
more stable, prosperous, and humane in 30 years' time than it 
is today.
    So, a patient, tolerant, long-term relationship with the 
international community, a sustainable presence, which requires 
a light footprint.
    Thank you all very much, indeed.
    [The prepared statement of Mr. Stewart follows:]

  Prepared Statement of Rory Stewart, Director, Carr Center on Human 
            Rights Policy, Harvard University, Cambridge, MA

    The administration's new policy on Afghanistan has a very narrow 
focus--counterterrorism--and a very broad definition of how to achieve 
it: No less than the fixing of the Afghan state and defeating the 
Taliban insurgency. President Obama has presented this in a formal 
argument. The final goal in the region is ``to disrupt, dismantle, and 
defeat al-Qaeda in Pakistan and Afghanistan, and to prevent their 
return to either country in the future.'' A necessary condition of the 
defeat of
al-Qaeda is the defeat of the Taliban because ``if the Afghan 
Government falls to the Taliban, that country will again be a base for 
terrorists who want to kill as many of our people as they possibly 
can.'' He, therefore, proposes a counterinsurgency strategy, which 
includes the deployment of more troops ``to take the fight to the 
Taliban in the south and the east'' and a more comprehensive approach, 
which aims to ``promote a more capable and accountable Afghan 
Government . . . advance security, opportunity, and justice . . . 
develop an economy that isn't dominated by illicit drugs.''
    This policy is rooted in the preset categories of counterterrorism, 
counterinsurgency, state-building and economic development. These 
categories are so closely linked that policymakers appear to put them 
in almost any sequence or combination. You need to defeat the Taliban 
to build a state and you need to build a state to defeat the Taliban. 
There cannot be security without development, or development without 
security. If you have the Taliban you have terrorists, if you don't 
have development you have terrorists, and as Obama informed the New 
Yorker, ``If you have ungoverned spaces, they become havens for 
terrorists.'' These connections are global: In Obama's words, ``our 
security and prosperity depend on the security and prosperity of 
others.'' Indeed, at times it seems that all these activities--building 
a state, defeating the Taliban, defeating al-Qaeda, and eliminating 
poverty--are the same activity. The new U.S. Army and Marine Corps 
counterinsurgency doctrine sounds like a World Bank policy document, 
replete with commitments to the rule of law, economic development, 
governance, state-building, and human rights. In Obama's words, 
``security and humanitarian concerns are all part of one project.''
    The fundamental problem with the strategy is that it is trying to 
do the impossible. It is highly unlikely that the United States will be 
able either to build an effective, legitimate state or to defeat a 
Taliban insurgency. It needs to find another way of protecting the 
United States against terrorist attack.
    We claim to be engaged in a neutral, technocratic, universal 
project of ``statebuilding'' but we don't know exactly what that means. 
Those who see Afghanistan as reverting to the Taliban or becoming a 
traditional autocratic state are referring to situations that existed 
there in 1972 and 1994. But the international community's ambition 
appears to be to create something that has not existed before. Obama 
calls it ``a more capable and accountable Afghan Government.'' The 
United States, the United Kingdom, and their allies agreed unanimously 
at the NATO 60th anniversary summit in April to create ``a stronger 
democratic state'' in Afghanistan.
    Whatever this state is, it could come only from an Afghan national 
movement, not as a gift from foreigners. As we have seen over the last 
7 years--and most starkly in the recent election--Afghan Government is 
certainly unlikely in the next 5 years to reflect U.S. ideas of 
legitimacy, legal process, civil service function, rights, economic 
behavior or even broader international assumption about development. 
Even an aim as modest as ``stability'' is highly ambitious. Afghanistan 
is a mountainous country, with strong traditions of local self-
government and autonomy, significant ethnic differences, but strong 
shared moral values. A centralizing constitution may well be combined 
with de facto local independence and Afghanistan is starting from a 
very low base: 30 years of investment might allow its army, police, 
civil service and economy to approach the levels of Pakistan. And 
Pakistan clearly still does not have whatever mixture of state-
formation, legitimacy, accountability or effectiveness that is 
apparently necessary to prevent the Taliban and al-Qaeda from 
operating.
    Nor is it clear that even if stronger central institutions were to 
emerge that they would assist U.S. national security objectives. Osama 
bin Laden is still in Pakistan, not Afghanistan. He chooses to be there 
precisely because Pakistan can be more assertive in its state 
sovereignty than Afghanistan and restricts U.S. operations. From a 
narrow (and harsh) U.S. national security perspective, a poor failed 
state could be easier to handle than a more developed one: Yemen is 
less threatening than Iran, Somalia than Saudi Arabia, Afghanistan than 
Pakistan.
    Second, it is highly unlikely that the United States will be able 
to defeat the Taliban in Afghanistan. The ingredients of successful 
counterinsurgency campaigns in places like Malaya--control of the 
borders, large numbers of troops in relation to the population, strong 
support from the majority ethnic groups, a long-term commitment and a 
credible local government--are lacking in Afghanistan.
    Nor is Afghanistan, comparable to Iraq. There are no mass political 
parties in Afghanistan and the Kabul government lacks the base, 
strength or legitimacy of the Baghdad government. Afghan tribal groups 
lack the coherence of the Iraqi Sunni tribes and their relation to 
state structures: They are not being driven out of neighbourhood after 
neighbourhood and they do not have the same relation to the Taliban 
that the Sunni groups had to ``al-Qaeda in Iraq.'' Afghans are weary of 
the war but the Afghan chiefs are not approaching us, seeking a deal. 
Since the political players and state structures in Afghanistan are 
much more fragile than those in Iraq, they are less likely to play a 
strong role in ending the insurgency.
    A strategy of ``clear, hold, and build'' seems particularly 
implausible in Afghanistan. In Iraq--which is a much more urban 
society--it was possible for U.S. and Iraqi security forces around 
Baghdad to ``clear and hold'' ground because the geographical area was 
relatively limited. Afghanistan has an overwhelmingly rural population 
scattered through an inhospitable terrain, the size of Texas and 
encompassing perhaps thousand villages. Even 100,000 U.S. troops would 
be far too few to hold or garrison even a fraction of such a vast area. 
In Iraq, a tradition of strong central government and a much more 
educated population with an indigenous resource base at least allowed 
for the possibility of ``building,'' following the ``clear and hold.'' 
In Afghanistan the lack of the most basic education and capacity and 
will in governmental structures (and even in the private sector) means 
that very little of substance could be ``built'' during the time that 
the United States and its allies attempted to ``hold.''
    Meanwhile, the Taliban can exploit the ideology of religious 
resistance that the West deliberately fostered in the 1980s to defeat 
the Russians. They can portray the Kabul government as U.S. slaves, 
NATO as an infidel occupying force and their own insurgency as a jihad. 
Their complaints about corruption, human rights abuses, and aerial 
bombardments appeal to a large audience. They are attracting Afghans to 
their rural courts by giving quicker and more predictable rulings than 
government judges. They can now easily exploit the corrupt practices in 
the election to portray the Kabul government as fraudulent and 
illegitimate. But our inability to inflict a final defeat on the 
Taliban may not be as dangerous as policymakers imagine.
    If the administration cannot create an effective, stable, 
legitimate state and cannot defeat a Taliban insurgency it must find 
another method of protecting U.S. national security and fulfilling our 
obligations to the Afghan people. And if it is impossible to build a 
state or defeat the Taliban, there is no point in deploying a hundred 
thousand troops or spending hundreds of billions of dollars in 
Afghanistan.
    The best Afghan policy would be to reduce the number of foreign 
troops from the current level of 90,000 to far fewer--perhaps 20,000. 
In that case, two distinct objectives would remain for the 
international community: Development and counterterrorism. Neither 
would amount to the building of an Afghan state or winning a 
counterinsurgency campaign. A reduction in troop numbers and a turn 
away from state-building should not mean total withdrawal: Good 
projects could continue to be undertaken in electricity, water, 
irrigation, health, education, agriculture, rural development and in 
other areas favoured by development agencies. Even a light U.S. 
presence could continue to allow for aggressive operations against al-
Qaeda terrorists, in Afghanistan, who plan to attack the United States. 
The United States has successfully prevent al-Qaeda from reestablishing 
itself since 2001 (though the result has only been to move bin Laden 
across the border). The U.S. military could also (with other forms of 
assistance) support the Afghan military to prevent the Taliban from 
seizing a city or taking over the country.
    These twin objectives will require a very long-term presence, as 
indeed is almost inevitable in a country which is as poor, as fragile 
and traumatized as Afghanistan (and which lacks the internal capacity 
at the moment to become independent of Foreign aid or control its 
territory). But a long-term presence will in turn mean a much lighter 
and more limited presence (if it is to retain U.S. domestic support). 
We should not control and cannot predict the future of Afghanistan. It 
may in the future become more violent, or find a decentralised 
equilibrium or a new national unity, but if its communities continue to 
want to work with us, we can, over 30 years, encourage the more 
positive trends in Afghan society and help to contain the more 
negative.
    Such a policy can seem strained, unrealistic, counterintuitive, and 
unappealing. They appear to betray the hopes of Afghans who trusted us 
and to allow the Taliban to abuse district towns. No politician wants 
to be perceived to have underestimated, or failed to address, a 
terrorist threat; or to write off the ``blood and treasure'' that we 
have sunk into Afghanistan; or to admit defeat. Americans are 
particularly unwilling to believe that problems are insoluble; Obama's 
motto is not ``no we can't''; soldiers are not trained to admit defeat 
or to say a mission is impossible. And to suggest that what worked in 
Iraq won't work in Afghanistan requires a detailed knowledge of each 
country's past, a bold analysis of the causes of development and a 
rigorous exposition of the differences, for which few have patience.
    The greatest risk of our inflated ambitions and fears, encapsulated 
in the current surge is that it will achieve the exact opposite of its 
intentions and in fact precipitate a total withdrawal. The heavier our 
footprint, and the more costly, the less we are likely to be able to 
sustain it. Public opinion is already turning against it. NATO allies 
are mostly staying in Afghanistan simply to please the United States 
and have little confidence in our objectives or our reasons. 
Contemporary political culture tends to encourage black and white 
solutions: Either we garrison or we abandon.
    While, I strongly oppose troop increases, I equally strongly oppose 
a total flight. We are currently in danger of lurching from troop 
increases to withdrawal and from engagement to isolation. We are 
threatening to provide instant electro-shock therapy followed by 
abandonment. This is the last thing Afghanistan needs. The 
international community should aim to provide a patient, tolerant long-
term relationship with a country as poor and traumatized as 
Afghanistan. Judging by comparable countries in the developing world 
(and Afghanistan is very near the bottom of the U.N. Human Development 
index), making Afghanistan more stable, prosperous, and humane is a 
project which will take decades. It is a worthwhile project in the long 
term for us and for Afghans but we will only be able to sustain our 
presence if we massively reduce our investment and our ambitions and 
begin to approach Afghanistan more as we do other poor countries in the 
developing world. The best way of avoiding the mistakes of the 1980s 
and 1990s--the familiar cycle of investment and abandonment which most 
Afghans expect and fear and which have contributed so much to 
instability and danger--is to husband and conserve our resources, limit 
our objectives to counterterrorism and humanitarian assistance, and 
work out how to work with fewer troops and less money over a longer 
period. In Afghanistan in the long term, less will be more.

    The Chairman. Thank you very much, Mr. Stewart and--let me 
begin with this question. Is there not a distinction between 
counterterrorism and counterinsurgency?
    Dr. Nagl.
    Dr. Nagl. There is, Senator. Counterterrorism is a 
component of a counterinsurgency strategy. Counterterrorism 
focuses on the enemy, where counterinsurgency focuses correctly 
on protecting the people. So, in any effective 
counterinsurgency strategy, you will conduct counterterrorism 
as part of what you're trying to do, but it is only a part and 
it's----
    The Chairman. Counterinsurgency is a more expansive 
strategy, is it not?
    Dr. Nagl. That is correct, sir.
    The Chairman. Dr. Biddle, do you agree with that?
    Dr. Biddle. Yes.
    The Chairman. Is it possible to wage a counterinsurgency 
and/or a counterterrorist activity without it being a war?
    Dr. Nagl. Senator, by definition, a counterinsurgency 
campaign is an attempt to support a government that is 
afflicted by those who are illegally using force to overthrow 
the government or change its policies. So, counterinsurgency 
demands insurgence; insurgence makes it a war.
    The Chairman. Automatically?
    Dr. Nagl. Yes, sir.
    The Chairman. You agree with that, Dr. Biddle?
    Dr. Biddle. I think, certainly, for the situation we see in 
Afghanistan, it's important to regard it as a war, yes.
    The Chairman. Mr. Stewart.
    Mr. Stewart. I think this a very important question about 
to what extent defeating the Taliban is a necessary or 
sufficient part of protecting the United States against al-
Qaeda attack.
    The Chairman. Now, let's come back, then, to, sort of, 
basics, here. If it is a war, you want to win it. Is that 
correct?
    Dr. Nagl. That is correct, sir.
    The Chairman. If you're going to deploy American troops and 
ask them to sacrifice their lives, it's important that they do 
so with the notion that there's a strategy to win.
    Dr. Nagl. Yes, sir.
    The Chairman. What does the counterinsurgency manual say is 
the number of troops needed in Afghanistan to win?
    Dr. Nagl. The counterinsurgency manual, based on historical 
records of previous counterinsurgency campaigns, suggests some 
600,000 counterinsurgents would be required to succeed in 
Afghanistan.
    The Chairman. Dr. Biddle, you agree with that?
    Dr. Biddle. The figure in the counterinsurgency manual is a 
reasonable rule of thumb, but is a very crude rule of thumb. 
General McChrystal is in the process now of doing a much more 
detailed troop-to-task analysis that I trust will have a much 
stronger basis for a specific troop recommendation. If one is 
going to apply the doctrinal rule of thumb, the doctrinal rule 
of thumb in the manual is one trained, capable counterinsurgent 
per 50 members of the population to be defended, which implies 
a figure roughly in the neighborhood of what Dr. Nagl said, 
yes.
    The Chairman. Somewhere between 500,000 and 600,000 troops.
    Dr. Biddle. Well, yes. I mean, among the complications here 
is that many people believe that the north and the west in 
Afghanistan, for example, is less threatened than the south and 
the east. And hence the need to----
    The Chairman. It's less threatened today.
    Dr. Biddle. Sorry?
    The Chairman. Today.
    Dr. Biddle. I actually think that that----
    The Chairman. But, is it----
    Dr. Biddle [continuing]. Assessment is seriously 
problematic, and that the north and the west today are in many 
ways--the best way to think about them is, they're where the 
south and the east were in 2003, 2004. So, I share your 
concern. But, important in generating----
    The Chairman. Well, the point is, if you're going to think 
about this policy intelligently, you can't just look at it 
today and say, ``Well, the west and the east, or the west and 
the north, are doing fine.'' The presumption is, if 27 percent 
of the country was under Taliban a year or 2 ago, and now it's 
37 percent, that's growing. So, you know, this troop 
relationship to what is necessary is really fundamental to the 
choices that we make about whether it is in our interest to 
fight a counterterrorist activity versus a full-fledged 
counter---you know, counterinsurgency, and whether or not one, 
in fact, will allow the other. I mean, this is--really takes a 
lot of discussion, and it's more than I'm going to get in the 7 
minutes I have. But, you got to go down this trail. Do you need 
to have X number of troops in order to provide sufficient 
security so the counterinsurgency can take hold?
    Yes.
    Dr. Nagl. Yes, sir, I believe you do. The vast majority of 
those forces should be Afghans, not Americans, so I would like 
to see 400,000 Afghan National Security Forces, more than 
double--roughly double what we were currently planning to 
build, and I believe that those forces, with minimal American 
assistance, advisers, air power, would be able to secure 
Afghanistan. I believe that that's probably 5 years away.
    The Chairman. And what would be the expectation of the 
American people as we go forward, here, in terms of the cost 
that you would envision over that 5-year period? And with what 
level of, sort of, guarantee of success?
    Dr. Nagl. Senator, I believe that we should expect to 
spend, over the next 5 years of that effort, probably as much 
as we have spent in lives and dollars over the preceding 8 
years. I feel that cost very deeply, as I know you do. But, I 
would point out that we have been spending that for 8 years in 
Afghanistan to date, and the situation is getting worse. We've 
tried the light-footprint counterterrorism option, and it has 
not succeeded. There is no reason to believe that it would get 
any better or any easier with the Taliban getting stronger.
    The Chairman. But, let me stop you there for a minute.
    Dr. Nagl. Yes, sir.
    The Chairman. You say ``it has not succeeded.'' Al-Qaeda is 
not in Afghanistan, is it?
    Dr. Nagl. To my knowledge, it is not, sir.
    The Chairman. And the goal of the President is to prevent
al-Qaeda from being in there and attacking the United States, 
correct?
    Dr. Nagl. Sir, that is one of the goals of the President.
    The Chairman. The second goal is to prevent the 
destabilization of Pakistan.
    Dr. Nagl. Yes, sir.
    The Chairman. Those are the principal goals.
    Dr. Nagl. Yes, sir. I agree.
    The Chairman. We are doing better in Pakistan.
    Dr. Nagl. We are, yes, sir.
    The Chairman. And there is no al-Qaeda in Afghanistan.
    Dr. Nagl. That is correct, sir.
    The Chairman. We just knocked out a major al-Qaeda figure 
in Somalia without 67,000 troops on the ground. In fact, we 
don't have any American troops on the ground, except for the 
moment that they were there to do what they did.
    Dr. Nagl. Correct, sir.
    The Chairman. Does that tell us something about the 
potential of a lighter footprint in Afghanistan?
    Dr. Nagl. Sir, it tells us that you can conduct 
counterterrorism with a light footprint; you cannot conduct 
counterinsurgency with a light footprint, and----
    The Chairman. Exactly the point I'm trying to----
    Dr. Nagl. Yes, sir.
    The Chairman [continuing]. Get at. But, isn't the 
President's goal fundamentally counterterrorism, or is it 
linked to the counterinsurgency that is critical to preventing 
the destabilization? And is it, as Mr. Stewart has suggested, 
in fact critical to that destabilization? And he actually 
offered the notion that it might be possible that's it creating 
more destabilization. Have we, in fact, thoroughly examined 
that?
    Dr. Nagl. Sir, we--I have, at least I believe--I do not 
claim to be an expert on Pakistan. I agree with Steve that the 
reason that counterterrorism will not work in Afghanistan, 
although it does in Somalia, is because of the presence of 
Pakistan next door to Afghanistan. Pakistan, I believe, is the 
key to the puzzle. Pakistan is America's vital national 
interest. And I am convinced that American counterinsurgency 
and counterterrorism efforts in Afghanistan have contributed to 
the more effective Pakistani counterinsurgency campaign.
    The Chairman. And let me make it clear. As I said in my 
opening comments, Pakistan is central, and I agree with that 
assessment. And I have--I'm not--you know, I haven't determined 
that, in fact, the counterinsurgency component won't be 
critical because of Taliban, but I think we have to examine 
this. I mean, this is fundamental to what we have to really 
come to some kind of firm conclusion on, because it is going to 
be critical to the numbers of troops and to the type of 
commitment that we make.
    Mr. Stewart, if you'd just comment quickly on this question 
of the destabilization, and then I want to turn to the other 
Senators.
    You asserted that it may be, in fact, that the presence of 
these troops is, in fact, a destabilizing, rather than a 
stabilizing, factor, and I want you to----
    Mr. Stewart. Yes, I mean, I----
    The Chairman [continuing]. That out.
    Mr. Stewart [continuing]. I think it's destabilizing in two 
potential ways. One of them is, as Pakistan military and the 
Pakistan Government complains, it often involves this squeezing 
and pushing insurgents across the border into Pakistan. And 
second, it provides some of the material of ideological 
resistance to the United States within Pakistan that we're 
perceived by the majority of the Pakistani population to be 
engaged in an occupation of Afghanistan.
    But, more importantly, I think that the strongest argument 
against this is that if it has some negative and positive 
effects, those are very minor compared to the real drivers of 
the problem in Pakistan. Pakistan will not stand or fall on 
Afghanistan. It's about the Pakistani Government, it's about 
the Pakistani military, it's about the Pakistani economy and 
the Pakistani society. There may be some positive results, 
there may be some negative results. But, by and large, 
Afghanistan is far less important to the future of Pakistan 
than we're suggesting.
    The Chairman. And the final question--and I apologize to my 
colleagues--Dr. Nagl, you helped write this field--this manual 
on counterinsurgency.
    Dr. Nagl. Yes, sir.
    The Chairman. And General Petraeus adopted it, correct? So, 
this is the military's current doctrine about troops needed for 
counterinsurgency.
    Dr. Nagl. Correct, sir.
    The Chairman. So, when you say 500,000 to 600,000 in order 
to guarantee success, we're not playing around with some sort 
of light figure, here. This is something you guys sort of 
settled on in a fairly rigid analysis.
    Dr. Nagl. Sir, it is--as Steve suggested, it is more of a 
rule of thumb than a guarantee. There are no guarantees in war. 
But, historically, successful counterinsurgency campaigns have 
relied on large numbers of troops on the ground to protect the 
population, particularly host-nation security forces.
    The Chairman. Well, if we're going to make the kind of 
decision we're being called on to make, if I were President in 
this circumstance, if we're studying the stakes the way we are, 
I want a guarantee. You know, Roosevelt took his guarantee, in 
a sense. Truman did. We were committed to that. And I--and as a 
former troop, let me tell you something, that's one of the 
things that I missed the most back then. And I would want to 
make sure we have that for the troops today.
    So, you know, I'm looking to make the soundest decision we 
can with what's necessary. I think the American people have to 
consider this, if that's what it's going to take to guarantee 
success.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Without oversimplifying the problem that you've all 
addressed, most Americans believe the United States entered 
into conflict in Afghanistan because of the presence of al-
Qaeda training camps there that were believed to have played a 
direct role in the attacks on Washington and New York on 9/11. 
Now, the existence of such camps had been known before, and 
they had been attacked at least once during the previous 
administration. But, nevertheless, the camps were there, and 
there were demands by our Government that the Taliban, who were 
apparently, at least to us, running the country, ought not to 
protect those camps, and that the United States should be able 
to eliminate them. At the time, the Taliban resisted that idea, 
and, as a result, we went in with military force not only to 
enforce the closing of the camps, but also to involve ourselves 
in the governance of the country.
    Now, experts may have known more about the internal 
situation in Afghanistan than most of us or the American 
public, but, by and large, we discovered that the central 
government was very weak, and there were so-called 
``warlords,'' or provincial governments, that for all intents 
and purposes were more meaningful for most citizens in many 
areas of the country. This situation existed in part because of 
transportation problems and other historical dilemmas.
    Now, as a result, it seems to me we've attempted to do a 
number of things; and you've talked about them today. We have 
had some success in rooting out at least most of the al-Qaeda 
that we know about, but, at the same time, we have not decided, 
or maybe even discussed, what our feelings ought to be with 
regard to the Taliban.
    Now, generally our feelings are negative. But, I offer an 
alternative thought--and I'll ask you, Mr. Stewart, to comment 
first on this. What if we were to discover, as some writers 
have discussed, that there are different degrees of Taliban, in 
terms of their antipathy to the United States or their 
responsibilities for Afghanistan--namely, some Taliban that we 
could deal with in a pragmatic way? And what if we 
rediscovered--we won't call them ``warlords,'' but various 
authorities out in the hustings who, in fact, were doing some 
governance work, and doing it at least fairly efficiently, even 
if not democratically, and without the problems of people 
looking in and seeing that there was a degree of corruption or 
what have you?
    I'm just probing as to if, Mr. Stewart, your theory that by 
having a presence which becomes overwhelming, we create more 
problems for ourselves without having any real effect on 
Pakistan, is correct. If we had fewer people, and they were 
more politically adept in weaving together a governance of 
Afghanistan, and perhaps they said, ``We understand that 
President Karzai may have some problems of personal or official 
corruption; maybe his brother does, too; but that seems to be 
fairly common in many governance positions all over the 
country.'' We are probably not going to be able to cure this 
problem altogether as much as we might abhor it. After all, we 
say President Karzai is a national figure we ought to plan to 
work with, as we do with the other regional leaders, in 
addition to finding more partners such as the good Taliban or 
whoever else.
    Now, under those circumstances, is it conceivable that we 
could pull together a situation in which Afghanistan did have 
stable governance and thus posed less of a threat to its 
neighbors? This would give us options, which we may already 
have, of discovering that there may be Taliban in 30, 40, or 50 
countries, depending upon the breadth of your imagination as to 
where they are, thus making apparent that Afghanistan is not 
the source of ``al-Qaeda in all these nations.'' The Taliban is 
not the objective; it is still people who are plotting to bomb 
Washington and New York City again, or to think of conspicuous 
terrorism that would give advantage to whoever doesn't care for 
us in the world.
    Would you probe the politics of this situation as I've 
tried to describe it?
    Mr. Stewart. I think, Senator--I mean, you voice a very 
important point. The Taliban are clearly an extremely, often 
horrifying and unpleasant group. There are many things that we 
object to very strongly about the Taliban. Unfortunately, 
working in a country like Afghanistan, we need to have a vision 
of a better future, but we need to have quite a pragmatic and 
moderate path toward that future. Through brutal terms, 
``ought'' implies ``can.'' We don't have a moral obligation to 
do what we can't do. So, that will really mean working in 
southern Afghanistan, particularly, trying to identify who the 
most powerful, effective, legitimate figures are in those 
areas. And some of those people may be associated with the 
Taliban, and some of those figures, as you suggest, Senator, 
are not, in fact, people who are of great concern to the United 
States. The majority of the people that we're killing and 
fighting are semiliterate villagers who would be pressed to 
find the United States on a map. It also means, unfortunately, 
that we may have to make compromises with the more progressive 
members of the provincial powerholders, which is another way of 
saying, in brutal terms, ``the better warlords.''
    This doesn't mean that we should be working with everybody, 
but, if we take the analogy of the Balkans, we are in a much, 
much better position now than we were in the Balkans 12 years 
ago. We worked in the Balkans with people who are now in The 
Hague. We did that on a deliberate strategy, knowing that 
things would improve, and that we weren't going to work with 
those people forever. We did elections in the Balkans, which 
were very flawed in the early days and which have got better 
now.
    So, what I'd like to see, following on from what you're 
talking about, Senator, is, first, not to get to hypnotized by 
the idea that these people are a critical threat to United 
States national security; second, that, although we can perhaps 
do less than we pretend, we can do more than we fear; and that 
if we had a genuine long-term vision for how to move forward, 
that accepted, as you said, that, fundamentally, the problems 
in Afghanistan are political problems, they're problems that 
are better addressed by political offices, and there's a real 
danger that a heavy military footprint will create parallel 
structures and undermine the sense of responsibility in the 
Afghan Government to address these problems themselves.
    Senator Lugar. I appreciate the answer. My time is up.
    Many would say that the discussion I've suggested, and 
you've conducted with me, offers a strategy that compromises 
the usual tenets of American foreign policy. We are for human 
rights, we're for democracy, we're for doing it the right way 
in terms of elections, and all the rest of it. And it's not 
that we've become obsessed with the thought that everybody else 
must follow us, but many would find it very disappointing for 
us to say, ``Let us take a look at warlords who may not be 
quite so bad, but, nevertheless, may be effective,'' or to say 
that, ``As a matter of fact, Taliban, with all of their 
practices, are not exactly people we want in any governance in 
the United States, but there may be elements of that group that 
it would be pragmatic to work with.'' It must be pointed out 
that we're now talking, as the chairman has pointed out, about 
options involving hundreds of billions of dollars, which we 
don't have in the United States--we're borrowing this from 
other countries--to finance this war. We're risking American 
troops, and talking about risking some more. These 
circumstances suggest that some unorthodox thinking may be 
required.
    And I appreciate your colloquy with me. I wish we had more 
time to visit along the panel.
    Thank you, Mr. Chairman.
    The Chairman. Well, Senator, the question of time is 
important here, and I'm going to consider, obviously, even, you 
know, recalling a panel, if necessary, if we think that there's 
more to be discussed, because I think this has to be thoroughly 
vetted. It's very difficult sometimes in these settings, but 
I've tried to do some of that in the roundtable manner that 
we've done. We're going to continue this. I can promise people, 
it will be thorough.
    Senator Feingold.
    Senator Feingold. Mr. Chairman, I really do want to thank 
you for holding this hearing on the alternative strategies to 
achieve our objectives in Afghanistan.
    I want to thank the witnesses for agreeing to testify.
    There has not been adequate discussion regarding the 
significant risks associated with our current strategy in 
Afghanistan, or about the potential alternatives, but I think 
that's begun to change in the last month. And actually a 
portion of the testimony and the hearing--of this hearing and 
the comments by these two Senators, I think, could represent 
something of a turning point with regard to this, as we look 
forward.
    My primary concern with our current strategy is that our 
massive military footprint may be breeding militancy in the 
region and could push militants into nuclear-armed Pakistan. 
That is why I have mentioned the need for a flexible timetable 
to drawdown our military presence in Afghanistan.
    The support of both the American and the Afghan people may 
well depend upon our clearly stating that we do not intend to 
occupy that country indefinitely. Indeed, recent polls have 
shown that 58 percent of Americans oppose the United States 
mission in Afghanistan, and 51 percent of Afghans want the 
United States forces to leave within 2 years.
    Now, I want to be clear, no one is talking today about 
abandoning Afghanistan. We are simply discussing the serious 
possibility that our massive military operations may be 
destabilizing the region. I happen to think the Taliban is 
thriving primarily due to poor governance. We must carefully 
evaluate whether, and to what extent, there is a military--a 
military--solution to that problem. Meanwhile, our top priority 
must be to develop the long-term strategy to keep pressure on 
al-Qaeda globally.
    And, you know, I was going to start off by asking what, 
essentially, Senator Kerry and Senator Lugar have already had 
you talk about, and that is that--whether or not military 
operations in Afghanistan may, in fact, be creating more 
militants in the region, and could be contributing to the 
destabilization of Pakistan.
    So, let me just ask Mr. Stewart the alternative--the 
opposite. How would you respond to critics of your proposal who 
argue that a smaller military presence would allow for 
increased Taliban influence in Afghanistan, and that that, in 
their argument, would actually destabilize Pakistan?
    Mr. Stewart. That's very difficult. To start with, of 
course, this is a very, very unpredictable country. Nobody 
predicted the rise of the Taliban properly in 1994, 1995. 
Nobody predicted that President Najib would stay in power after 
the Soviet Union withdrew. So, I'm not going to stand here and 
say that we can predict it. There's a significant risk that a 
reduction in a military footprint would mean that the Taliban 
could consolidate some of their holds, particularly in rural 
areas in southern and eastern Afghanistan. And we need to make 
a decision on that basis. We need to accept that risk. And we 
need to think about what we're going to do with that risk.
    Personally, I think the Taliban is not in a position to 
capture a major city. They're not in a position to take over 
the country. They're not the Taliban of 1994. They no longer 
have powerful Pakistani military support or planes or artillery 
or tanks. They discredited themselves when they were in 
government. There's a much stronger opposition from the 
minority groups in the north and the center. They're not in a 
situation of civil war.
    I believe, with United States support, financial support, 
primarily to the Afghan Army, and a light American military 
footprint, we should be able to prevent the Taliban from taking 
major cities in the country without too much problem. All 
right?
    Is this Taliban presence going to destabilize Pakistan? 
Well, for that we'd have to defer to the Pakistanis. But, my 
sense, coming from the Government of Pakistan, is that they do 
not see that as the primary threat to their country. They 
believe that they can contain and manage the situation in 
Afghanistan. As I say, Pakistan is a much, much larger country 
than Afghanistan; it is the tiger to the cat. What destabilizes 
Pakistan, of course, ranges all the way over to the Indian 
border, and includes very basic social-economic indicators in 
that country, and the movement of religion and ideology in that 
country.
    The presence of Afghanistan of some Taliban troops, I don't 
think is likely to be the decisive factor in the collapse of 
Pakistan.
    Senator Feingold. I really appreciate that answer.
    Dr. Biddle, if we were to pursue a middle-of-the-road 
option, where we reduced the size of our footprint but remain 
engaged, to support the Afghan security forces and then use our 
leverage to contain any outside support for the Taliban, do you 
believe that an outright defeat of the Afghan Government by the 
Taliban would be likely?
    Dr. Biddle. I think there are a variety of middle-way 
options that are attractive. The trouble is, they all have 
shortcomings, militarily, that I don't think have been 
adequately discussed.
    One of the them, for example, a shift in U.S. emphasis from 
combat to training and advising, if it's done without a 
substantial troop strength to do the training and advising and 
mentoring and partnering, runs the substantial risk of allowing 
the Taliban to gain control of the country while we're in the 
process of training, and it also undermines the efficacy of the 
training that we conduct.
    In many ways, the business of building up an indigenous 
military, where there is not one at the moment, is a poor 
analogy to many kinds of educational activity. It requires a 
great deal of learning by doing, and it requires a great deal 
of close cooperation with Western mentors in the conduct of 
actual combat operations.
    I very much agree with Dr. Nagl, that the development of an 
indigenous Afghan military force is absolutely necessary if 
we're going to get out of this with our interests realized. To 
do that, however, I think requires a more substantial U.S. 
investment than many who would like to see a middle option are 
prepared to provide.
    Senator Feingold. Mr. Stewart, what percentage of the 
people currently fighting alongside the Taliban would you 
estimate share al-Qaeda's international terrorist agenda, and 
what percentage are fighting us because we are there?
    Mr. Stewart.
    The Chairman. Can I just intervene? And I won't take it----
    Senator Feingold. Yes, OK.
    The Chairman [continuing]. From your time. But, could you 
just quantify that, what you just said: ``It'll require a 
substantially greater investment''? Can you put us----
    Dr. Biddle. Well, again, I'm reluctant to prejudge General 
McChrystal, who's now calculating precisely that number. Some 
figures I've seen are on the order of one American per three 
Afghans to be trained. But, again, there's a very detailed 
analysis, now ongoing, that, unfortunately, as an outsider, I 
don't have the resources to compete with. And I hope that 
analysis will be made public shortly.
    The Chairman. Thanks.
    And thank you, Senator Feingold.
    Senator Feingold. I'll just repeat, Mr. Stewart, the 
question. What percentage of the people currently fighting 
alongside the Taliban would you estimate share al-Qaeda's 
international terrorist agenda, and what percentage are 
fighting us because we are there?
    Mr. Stewart. This is a very complicated question to answer, 
of course. There are links between those two groups, but, 
broadly speaking, there is a distinction which is worth 
maintaining.
Al-Qaeda began, and remains to some extent, a non-Afghan 
movement. In a sense, the people who are interested in 
international terrorists attacks against the United States, and 
who even would have the imagination to mount those kinds of 
attacks, have tended to be people, in fact, from relatively 
educated middle-class backgrounds. It's no accident that 
Mohammad Atta was a German resident, or that Zawahiri, for 
example, is a doctor and comes from an elite Egyptian family. 
Most of the people we're fighting are, broadly speaking, 
peasants and, broadly speaking--I don't mean that in an 
offensive sense, but I mean in terms of their lifestyle and 
their mindset and the way in which they view the world--they're 
not particularly interested in international terrorism. And of 
that small proportion that are, far fewer would ever be able to 
have any serious chance of carrying out whatever ambitions they 
might have in their fantasies.
    So, I would repeat, in terms of protecting U.S. national 
security, we're dealing with a very, very focused defense 
against people who, by and large, should be distinguished from 
the Taliban and distinguished from the people we're fighting on 
a daily basis.
    Thank you.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, for the hearing.
    And thank you, as panelists, for being here. I think you 
all have been very good.
    You know, today we had a briefing, talking about metrics. I 
know we're going to be talking about resources here in the near 
future. One of the things that did occur in Iraq is, there was 
a discussion about what victory might be, and people ended up 
trying to envision what that might be, and we'll see if it 
turns out that way. I hope it does. But, in Afghanistan, no one 
has really been able to describe what victory is. You all have 
different viewpoints here, at least there's two distinct ones. 
And I wonder if, in a very brief way, you might be able to 
describe to us what you think victory in Afghanistan would look 
like?
    Dr. Nagl. Sir, I would define victory in Afghanistan as an 
Afghan state that is able to secure itself from internal 
threats with minimal external help, that does not present a 
security threat to the region, does not serve as a base for 
attacks upon its neighbors, and that does not harbor al-Qaeda 
and is opposed to the interests on al-Qaeda, worldwide.
    Dr. Biddle. I would----
    Senator Corker. So, sort of a three-tiered victory.
    Yes, sir.
    Dr. Biddle. I would articulate a minimalist conception of 
what's necessary to secure our interests in Afghanistan. We 
need only a country that is sufficiently in control of its 
territory, that large contiguous blocks of meaningful 
Afghanistan cannot be used as a base for attacking others. 
Beyond that, our goals are aspirational. That is sufficient for 
our purposes. I think that can be attained with a good deal 
less than Switzerland and the Hindu Kush.
    Senator Corker. OK.
    Yes, sir.
    Mr. Stewart. I'd go even further in a minimal direction and 
say that we have two very narrow objectives there. The most 
important, from the point of view of the United States, would 
simply be that Afghanistan does not in any way pose a majorly 
increased terrorist threat to the United States. I don't think 
we need to get into whether that's involved in state-building 
or contiguous blocks of territory or safe havens. The question 
is, Is there anything that they would gain in that country 
which would make them better able to hurt the United States 
than they're currently able to do in Pakistan? So, if we could 
achieve that and, at the same time, follow a long and, I think, 
honorable process of rebuilding Afghanistan, with a 
humanitarian objective and obligation--not with a huge amount 
of resources, but showing that the United States is serious 
about helping the Afghan people and fulfilling our commitments 
over the last 20 years--I think that would be enough. And, 
broadly speaking, to follow on from Senator Kerry, what we'd be 
looking at is a strategy which--I don't want to put it too 
boldly, but would look on the counterterrorist side a little 
bit like what we do in Somalia, and maybe, on the development 
side, a little bit like what we do in countries like Nepal, but 
maybe on a more generous level.
    Thank you.
    Senator Corker. Thank you. And obviously it's--I think it's 
going to be imperative for us to first agree on what we think 
that is, because these are very different views as to what 
victory is.
    So, let me move on to the second one. We've talked a lot 
about military presence, here, and the administration has 
talked about a much more narrow focus than being 
counterterrorism. But, if you really look at the metrics that 
they're looking at, I mean, this is all-out nation-building. I 
mean, I was there on election day--I'm amazed that some of the 
historic-site-rebuilding. I mean, we are nation-building right 
now in Afghanistan.
    So, I guess my question is, in addition to the security 
piece--and I--you all have talked about different components of 
counterterrorism and counterinsurgency, meaning keeping the 
population safe--what degree of nation-building--economics, 
highways, judicial systems, corruption--anticorruption 
efforts--what degree of nation-building should be undertaken 
with whatever military presence we have there?
    Dr. Nagl. Senator, it's a commonly accepted principle of 
counterinsurgency that, if you are losing a counterinsurgency 
campaign, you're not being outfought, you're being outgoverned. 
And what's happening now is that the Taliban is providing many 
essential services to the Afghan people; in particular, in the 
south and in the east. It's providing them with some degree of 
security and some degree of justice. It's not necessarily a 
justice or a security that they would choose if they had a 
choice. And, in fact, those--when they're given the option, 
they support the United States involvement at about 50 percent, 
and they support the Taliban at about 5 percent. But, it is 
better than what the Afghan Government is able to give them.
    So, to succeed in this campaign, we have to build an Afghan 
Government that can provide them with security first, and then 
with some degree of justice and some degree of economic 
potential, in order to provide a more positive alternative than 
the Taliban presents.
    Senator Corker. So, you have three goals for victory, and a 
pretty all-out nation-building effort to go with it.
    Dr. Nagl. Sir, I would not say that I'm trying to ``build a 
nation'' as much as I'm trying to build a state that can secure 
its people and care for its people and protect them against--I 
consider--what I consider to be a pretty insidious, vicious, 
and horrible alternative, called the Taliban.
    Senator Corker. Thank you.
    Dr. Biddle.
    Dr. Biddle. I am minimalist with respect to what I think we 
can accomplish in Afghanistan, but I'm also minimalist with 
respect to what I think we need to accomplish in Afghanistan. 
War, at the end of the day, is a competitive undertaking. One 
doesn't need to meet some abstract, absolute standard. One 
needs to do better than the enemy one's fighting with respect 
to most dimensions of the problem, including governance. And 
happily, I actually agree with Rory Stewart, that the Taliban 
has very important weaknesses and shortcomings. I think that's 
actually an important basis for my belief that failure is not 
inevitable, is that our opponent in this conflict has very 
important weaknesses and shortcomings; among them, their 
ability to provide a form of governance that the Afghan people 
actually want.
    What's happening at the moment is that an unpopular 
Taliban, with an unpopular form of governance, is in danger of 
being in direct competition with a government that's becoming 
almost as unpopular as they are.
    What we need, at the end of the day, is simply to provide 
an alternative to the population that is preferable to a 
Taliban that they don't want. And I think that's a rather 
modest standard which I--you know, subject to the uncertainties 
of war and the difficulties of the undertaking, I think is, in 
principle, achievable.
    Senator Corker. Thank you.
    Rory.
    Mr. Stewart. I think that state-building is not a national 
security priority for the United States in Afghanistan. I think 
it's a good thing, for humanitarian reasons, it's a good thing 
for the Afghan people, it's something we should support as a 
development project over a long period. But, it is so 
problematic. This country is so poor. The majority of civil 
servants don't have a high school education. Forty percent of 
the people in the country can't read and write. The government 
is really lacking in legitimacy and popularity; the elections 
have illustrated that. We could invest 30 years in Afghanistan 
trying to develop the military and the civil service in the 
state, and, if we were lucky, we would make Afghanistan and its 
state structures resemble Pakistan. And I mean that. I mean any 
Pakistani, I think, would confirm that the Pakistani military, 
the Pakistani civil service, its government, its economy, its 
society is in many ways, far advanced than that of Afghanistan. 
And there's not a great United States national security 
interest involved in trying to make Afghanistan become, over 20 
or 30 years of investment, more like Pakistan. But, I think, 
there could be a good humanitarian reason for improving things 
in those directions, and it's one we should support, for 
humanitarian reasons.
    Senator Corker. Thank you.
    Mr. Chairman, I know my time is up.
    Thank you for your testimony and very diverse viewpoints.
    The Chairman. Well, it's very, very important lines that I 
think can be--are sort of defined in the three answers, and 
there's sort of a matrix there, if you will, for some of the 
choices. And we're going to try to set it up as such.
    But, a really interesting question that we have to look at 
more--and I'm not going to go in it--but, it's just this 
question of the Taliban. We keep coming back to the Taliban and 
to what their impact may or may not be. And I was very 
interested in Dr. Biddle's answer, which came in at a slightly 
different place from Dr. Nagl. And I think it begins to frame 
the connections that we've got to look at here, you know. And 
Rory Stewart very, you know, appropriately said, is it a 
national security interest, in fact, or is it a--you know, some 
other kind of interest? And that's something that we've got to 
really think through carefully.
    Senator Cardin. Well, Mr. Chairman----
    The Chairman. Senator Cardin.
    Senator Cardin [continuing]. Mr. Chairman, I'm going to 
follow up on the Taliban in one moment, because I do think that 
is an important factor in achieving our mission in Afghanistan. 
You have pointed out many times that the al-Qaeda is not 
indigenous to Afghanistan, and that the Taliban has been 
somewhat of a support system for the terrorist activities.
    You know, one of the things that concerns me is that--I 
think you all have expressed minimalist expectations for what 
we can achieve in Afghanistan, and that makes it difficult for 
us to want to invest to increase combat troops in Afghanistan. 
I think most of us support the President's mission of trying to 
disrupt terrorist operations, and we want to see that done 
effectively, but we don't see the endgame here, by adding more 
combat troops. Of course, we're going to wait to see General 
McChrystal's recommendations. But, one thing is clear: we need 
to build up a more functioning society to take care of the 
population's own needs. That's in everyone's interests. I think 
we all agree on that point.
    Now, Senator Levin has talked about increasing the amount 
of national security forces within Afghanistan. He's also 
talked about trying to reintegrate the Taliban into Afghan 
society in a more constructive manner. And I think there is 
support for this. I just want to understand how realistic this 
is. At least it's our view that
al-Qaeda's not popular in Afghanistan. The Taliban are not 
really zealous when it comes to wanting to fight; at least it 
appears that it's more pragmatic and economic and political 
than it is philosophical.
    Our strategies in the Helmand region and elsewhere have 
been to periodically destroy poppy crops, but not really to 
provide alternative economic opportunities for the farmers. I 
know that we're trying to change that strategy. It seems to me 
that we could be effective in reducing the influence of the 
Taliban if we could reintegrate those that are looking for a 
better life for their families, with opportunities--real 
opportunities--through a real concerted effort. To me, that 
would have much more political support, but I haven't seen an 
effective policy today.
    Is there promise in trying to disrupt the growth of the 
Taliban's influence in Afghanistan by directing alternatives to 
those who have joined the Taliban forces--by offering 
alternatives and other crops than poppy--and to really try to 
deal with this in a much more sophisticated way? What's the 
prognosis, here?
    The Chairman. Before you answer, I need to apologize. I 
need to go to a Finance Committee meeting on health care for a 
brief moment. Senator Lugar will chair in my absence. I'm going 
to try and get back, but I can't guarantee it.
    Thanks.
    Dr. Biddle. Reconciliation, as well as economic development 
and the development of an indigenous military, is clearly an 
important part of any successful outcome we might be able to 
attain in Afghanistan. The issue is whether it's separable from 
a larger counterinsurgency campaign. In many ways, it would be 
nice if it would be, because it would enable us to do this at 
much lower cost and much lower effort. The trouble is, the 
pieces of the component problem tend to interact strongly with 
one another.
    Take, for example, economic development. It's very 
difficult for us to provide economic development in an insecure 
environment. The Taliban----
    Senator Cardin. Well, part of Senator Levin's point is that 
we need to significantly increase--and I think the 
administration has agreed on this--significantly increase the 
security forces, both military and police, in Afghanistan.
    Dr. Biddle. Yes, and as we develop security forces that can 
provide that degree of protection for the population, a variety 
of other things become possible in lockstep, one being a better 
prospect for economic development, another being better 
prospect for reconciliation with reconcilable elements of the 
Taliban. When we say ``the Taliban,'' it's in many ways a 
misnomer. This is a very heterogeneous collection of factions 
that have very different interests, very different motivations, 
very different component parts and ways of working.
    In principle, it should be possible to drive wedges between 
these, and reach settlements with an important fraction of what 
is now a collection of those who oppose us and oppose the 
Government of Afghanistan. The trouble we face at the moment 
is, the perception on that side of the frontier, if you like, 
is that they are ascendant. And when they are ascendant, that 
poses a variety of difficulties for a reconciliation strategy, 
among which being, it's very dangerous to get caught on the 
losing side in a negotiated end to a conflict like Afghanistan.
    If the military tide begins to turn and perceptions of the 
longer term trajectory of this conflict change from a high 
expectation that the Karzai government is going fall and will 
be replaced by a Quetta Shura-based alternative to something in 
which there's an expectation that the Karzai government will 
survive, and staying in the field simply means a long-grinding 
stalemate, then it becomes much more possible for us to reach 
reconciliation deals, either with faction leaders among this 
collection of factions or with the individual foot soldiers 
that comprise their armed forces in the field. It's very 
difficult to persuade a $10 Taliban, a member of the village 
who is simply fighting to feed his family, to side with us when 
there's no expectation that the environment is going to be 
secure and their erstwhile allies will come get them after they 
accept our offer.
    Senator Cardin. I agree with what you're saying, but I 
think the weakness of your position is that it appears to say 
that we're going to have a large international, primarily 
United States, military combat mission for a long time and, 
ultimately, the chances of success are unclear. This comes with 
other negative impacts, with us being perceived as an 
occupation force within Afghanistan. It seems that the proper 
way to do this is to accelerate the training of Afghan security 
forces and be realistic as to what regions we can secure and 
make advancements in, rather than trying to have a military 
combat solution to a problem where we're trying to build up 
government capacity.
    Dr. Biddle. Well, I do think that the prospects for 
success, while--you know, while nonzero, involve a great deal 
of cost, and potentially a great deal of time. And that's why I 
see this as a close call on the merits. If I thought that we 
could succeed without incurring this kind of cost, I would see 
this as a clear argument for proceeding. If I thought that 
success was impossible were we even--even were we to incur the 
cost, I would see this as a clearly inappropriate mission. I 
think what we've got is a very difficult, very costly 
undertaking, which can succeed if we invest the cost and the 
effort, and where we have nonnegligible stakes involved. And 
that's preciously what makes this, I think, on the merits, such 
a difficult case and such a close call.
    Senator Cardin. Well, I'm not sure I agree that it's all or 
nothing. We do have combat troops there now. We've increased 
the number of combat troops. It seems to me we've not made 
progress, and we haven't trained more troops. I think we have 
squandered some time, but I don't want to see us continue this 
current policy. And I'm not sure the circumstances on the 
ground give us the prospect that you're referring to.
    Dr. Nagl. Senator, can I talk to this from my personal 
experience?
    Senator Cardin. Well, my time has expired so----
    Dr. Nagl. Thank you, Mr. Chairman.
    Sir, I served in Al Anbar in 2003 and 2004 with the 1st 
Brigade of the 1st Infantry Division. I tried to conduct a 
comprehensive counterinsurgency campaign with insufficient 
resources. I worked to build Iraqi security forces. I worked to 
conduct economic development. I didn't have enough boots on the 
ground to secure my area. The insurgents blew up all of my 
economic development projects. They killed my battalion 
commanders that I trained. I am not going to say we went 
backward during my service in Al Anbar, but we certainly did 
not make progress very rapidly. And I'm--I very--I agree with 
Steve, I very much wish that, with economic development and 
with training host-nation security forces, that that were 
sufficient. But, the truth is that there is a base level of 
security that has to be provided on the ground.
    Senator Cardin. And I don't disagree with that. We have to 
have security for the economics in the region to be successful. 
The question is, Who supplies the security? I understand the 
United States and international community have a responsibility 
for training, but ultimately, the security has to be provided 
by the Afghans.
    Dr. Nagl. And, Senator, it's my contention that I've worked 
with the Afghan security forces. They are good fighters. There 
are far, far too few of them to do that now. So, I agree with 
Senator Levin, we absolutely have to build more Afghan security 
forces, but if we do not also provide more security on the 
ground where we're doing that, an awful lot of those battalion 
commanders will be killed by the Taliban.
    Senator Cardin. Thank you.
    Senator Lugar [presiding]. Thank you very much, Senator 
Cardin.
    Senator Casey.
    Senator Casey. Thank you very much.
    And I appreciate the time that all of you have put into 
this, both your presence here today, your testimony in 
answering questions, as well as the experience and scholarship 
that you bring to this issue.
    I want to try to focus on at least two areas, maybe three. 
I, like a lot of other Senators, in the last couple of months 
had a chance to go to both Afghanistan and Pakistan for a 
limited period of time, but, even in a short amount of time, 
you learn a lot, or at least you gain better insights. I was 
particularly impressed by a lot of the fighting men and women 
who were there starting with the briefing General McChrystal as 
well as the nonmilitary folks gave us. Also, I was very 
impressed by not just his appreciation for, and respect for, 
but the General's demonstrable--of course, it's my own 
assessment, but I think I can judge people pretty well--
integration of the State Department folks as well. It is one 
team over there, people working from the Department of 
Agriculture, DEA, you name it, USAID--go down the list--brave, 
committed, capable Americans, both military and nonmilitary, 
doing that work. And it's really early in their assignment. We 
just changed strategy. So, I hope we all don't make conclusions 
too early, here. I know, in Washington, they want us to. That's 
what we do in Washington, we have very limited debates, and 
people go into their political corners, and we don't often have 
a full debate.
    I was glad that Senator Kerry raised the question of how 
important it is to have a full and substantive debate about 
troop levels--not the usual political Washington debate, which, 
candidly, sometimes people in both parties engage in. It's 
critically important we get that right.
    I think, prior to a serious consideration of the troop 
question--since, technically, right now that's not before us 
and there has been no recommendation beyond 17 plus 4--I think 
it's very important, in my judgment, that we listen to and take 
all information into consideration. I have spent a lot of time 
with some of the questions raised by Senator Levin in his 
speech.
    To this end, the elevation of the number of Afghan Army and 
police--we've already talked about that and Senator Cardin 
mentioned it, as well. On this issue, I have two quick 
questions, then I'll move to another one.
    The question is, How and then, how many? How do we--if you 
accept the premise that we're not moving fast enough on 
developing army and police there, and I think that's an 
imperative, for a whole variety of reasons--how do we 
accelerate the training of the Afghan Army and police force? 
And the second question is, How many do we need? Is there a 
metric or is there a ratio that you can use for number of 
trainers, either American or coalition forces, training Afghan 
troops, or not?
    And I'd start with Dr. Nagl, and we can go from there.
    Dr. Nagl. Yes, sir.
    I absolutely agree that we can, and should, accelerate the 
training of the Afghan security forces. This has--frankly, this 
has not been a success story for the United States over the 
past 8 years. The effort to build Iraqi security forces also 
suffered from a slow start, but has succeeded to a more than 
reasonable degree at this point. And the Iraqis are 
increasingly able to provide for their own security. There are 
many lessons that can be drawn from the process of building the 
Iraqi security forces that can, and should, be applied to 
building the Afghan security forces.
    It's important to note just what a low point we're at right 
now, as we speak. So, currently, today, we have less than 50 
percent of the advisers assigned to the Afghan Army that we 
say--that the United States says are required to train them. 
And we'll fill that role--those are the 4,000--the 17 plus 4--
those 4,000 will arrive in-country this month. I expect to see 
a pretty substantial increase in the performance of the Afghan 
security forces as those 4,000 advisers catch hold and, for the 
first time in the 8-year war, we fully man our advisers to the 
Afghan military. So, that's a huge step in the right direction.
    I believe the right answer is approximately 250,000 Afghan 
soldiers, 150,000 Afghan police. We are currently planning to 
build to about half that level. I believe we can accelerate--we 
can't quite double our rate of growth, but we can increase it 
substantially, perhaps a third. I believe that doing so would 
take the commitment of an additional 10,000 or so U.S. advisers 
and trainers over the course of 2010.
    But, I would like to echo something Steve said----
    Senator Casey. You mean noncombat troops----
    Dr. Nagl. Not in--those are----
    Senator Casey. Right.
    Dr. Nagl [continuing]. Those are advisers. But, frankly, 
sir, many, if not--an appreciable number of the soldiers we've 
lost in combat--and the chairman mentioned that August was the 
worst month of the war for us--an appreciable number of the 
soldiers we've lost have been advisers and trainers. So, no one 
should think that, because we're sending over trainers, that 
they're not going in harm's way. They will--and we will lose 
some in this hard fight against a vicious enemy.
    So, another 10,000 advisers over the course of the next--
over the course of 2010, but it's important that we mentor 
units, as well. So, they have to have American or international 
units to partner with, which will increase the rate of growth 
of those Afghan security forces, make them more capable, 
faster. And all of these efforts will ultimately lead to an 
earlier withdrawal, an earlier exit strategy that has 
accomplished our national security objectives.
    Senator Casey. Because of the prelude to my question, I'm 
down to just about a minute. But, maybe for our other two 
witnesses, can you just give a quick summation? When we talk 
about that border region--I don't think we've spent a lot of 
time in Washington talking about the extremist--the networks 
that are there. I'm aware of at least three networks--the 
Quetta Shura, which is in the southern end of the border 
between both countries; the Haqqani network; and then the so 
called H-I-Q, or H-I-G network. How would you describe the 
three of them? And are there major differences? And does one 
pose more of a threat to our security, or the security of the 
region, than another? I know that's a lot, and you've got 9 
seconds, but----
    Dr. Biddle. Just very briefly, the most threatening to U.S. 
national security interests is the Quetta Shura Taliban, which 
is based around the old Taliban government and Mullah Omar. The 
other two factions are people--are lead by people that I 
wouldn't want to have dinner with, but that I think are less 
ideologically committed and much more radically self-
interested; and thus, you could conceivably imagine splitting 
off from the remainder of this alliance.
    Were the preconditions for negotiating success present? And 
again, my concern is that, at the moment, I don't see those 
preconditions being present.
    Senator Casey. Thank you very much.
    Mr. Stewart, I know I'm over but I'll----
    Mr. Stewart. Unfortunately, it's an area I know very little 
about, so I have very little to say. Sorry, Senator. I'm not an 
expert on the details. In fact, I would say, as a caution on 
this, that the amount of information available on those groups 
is considerably more limited than is suggested by some of the 
confident statements made about them.
    Senator Casey. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Casey.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Mr. Stewart, I think I understood you to say that one 
alternative we have in Afghanistan is to pursue a narrow 
counterterrorism objective and a humanitarian effort. Can you 
describe, in about a minute or less, how you define a narrow 
counterterrorism objective? What that would look like, in terms 
of troops, in terms of support from either the United States or 
an international effort?
    Mr. Stewart. Yes. I think the central question is, What 
kind of benefit would al-Qaeda find in being based in 
Afghanistan? How would that increase their ability to harm the 
United States? Clearly, our priority isn't to keep them out of 
Afghanistan just for the sake of keeping them out of 
Afghanistan; it's to protect the United States. So, we need to 
look seriously at what we mean when we talk about the Taliban 
providing a safe haven. How safe is that haven? What can a very 
poor, technologically incompetent group like the Taliban really 
do to protect al-Qaeda?
    To some extent, what they did in the leadup to 2001 was not 
much more than saying, ``Pitch your tent over there and we're 
not going to hand you over to the United States.'' How much 
ability do they really have to protect al-Qaeda if they built a 
Quantico-style camp against Delta Force or against predators 
coming in?
    In fact, curiously, one of the things that we've learned, 
is that a failed state may be less threatening to U.S. national 
security than a partially formed state. It's very noticeable 
that Osama bin Laden has chosen to be in Pakistan, not in 
Afghanistan, a country which has considerably more established 
state structures, and that is because, to some extent, he's 
protected by Pakistani claims to state sovereignty.
    One of the things we may be learning through this period is 
that, in fact, states like Pakistan, or, of course, states like 
Iran, may be proved to be more damaging, more dangerous to U.S. 
national security, than failed states like Afghanistan or 
Somalia, where our freedom of operation is so much greater.
    Senator Shaheen. But, I guess I still am not clear on what 
you're saying it would take, in terms of an American effort, to 
provide just that narrow counterterrorism objective. I 
understood what you said with respect to the ability of the 
Taliban to support
al-Qaeda. But, what is not yet clear to me is what it would 
take for the United States to actually ensure that they don't 
have the ability to support al-Qaeda.
    Mr. Stewart. So, if the only thing you were trying to do is 
to ensure that al-Qaeda did not discover in Afghanistan 
something that gave them a serious comparative advantage, a 
serious advantage in their ability to attack the United States, 
I believe you could do that with an intelligent use of Special 
Forces and intelligence operatives, whose job would simply be 
to identify those vary narrow group of people called ``al-
Qaeda'' with an international objective against the United 
States, and then to eliminate them. If that's the only thing 
we're involved in, we don't need too many troops.
    Senator Shaheen. Was that not, however, how--what we were 
doing for much of the last 7 years that we've been in 
Afghanistan? And it has not----
    Mr. Stewart. It's worked----
    Senator Shaheen [continuing]. Accomplished----
    Mr. Stewart [continuing]. It's worked very well, Senator. 
There have been no al-Qaeda in Afghanistan. They haven't 
attacked us from Afghanistan. If our only objective is to stop 
al-Qaeda from re-forming, we've won. We've achieved that 
objective.
    Senator Shaheen. Well, how would you respond to--I think it 
was Dr. Nagl's comments, that our efforts in Afghanistan have 
made Pakistan more stable? Would you agree with that?
    Mr. Stewart. I can't see any evidence that our efforts in 
Afghanistan have made Pakistan more stable. I would consider 
Pakistan less stable today than it was. And I don't think 
that's largely because of our efforts in Afghanistan; that 
because of eternal Pakistani factors to which Afghanistan is 
largely irrelevant.
    Senator Shaheen. Well, when we were--I had the opportunity 
to visit, shortly after the President announced that new 
strategy for Afghanistan, and one of the things that I thought 
I heard from those that we talked to was that our efforts were 
important, not just in addressing the Taliban, but because of, 
as you've all pointed out I think, the relationship between the 
Taliban and al-Qaeda. And isn't one of the challenges here the 
fact that if they are successful, whether it's the Taliban--the 
bad Taliban, however we want to describe them--or al-Qaeda, 
that the potential for getting access to nuclear weapons 
because of the situation in Pakistan is one of the real 
challenges, and that that's part of what we're trying to 
address here? And so, I guess, if what we've done is to move
al-Qaeda into Pakistan by the efforts that we've had on the 
ground in Afghanistan, how does that access to nuclear weapons 
in Pakistan and the potential destabilization there get 
affected by our reducing a footprint there to just what you're 
describing as a narrow counterterrorism object? And I guess I'd 
like for each of you to answer that question.
    Dr. Biddle. Well, I suppose I'll start. I think the 
question of the security of the Pakistani nuclear arsenal turns 
centrally on the question of the survival of the secular 
Pakistani state. As long as the state survives, and as long as 
the state's writ runs, I think there's a reasonable basis for 
confidence that that arsenal is secure.
    The problem is precisely if the Pakistani insurgency 
succeeds and either the government falls or the state 
collapses. And again, to the extent--to the extent that there 
is a serious United States national security interest uniquely 
engaged in Afghanistan and not elsewhere, it is precisely the 
concern that chaos on the other side of the Durand Line could 
have effects that would swamp what may be marginally 
deleterious effects of the United States presence on Pakistani 
public opinion now with the enormous massive problem of a 
hostile or--either a hostile state on the other side of the 
Durand Line or simply an uncontrolled environment of violence 
in which factions hostile to the Pakistani Government are 
running rampant.
    This raises the issue that underlies several of your 
questions, which is, What is the meaning of a haven in this--in 
today's environment, with the Internet and with the ability to 
plan in remote locations? And I disagree, fundamentally, with 
Rory Stewart on the function that havens provide and the 
ability of the United States to thwart geographic havens with 
Special Forces strikes or with drone attacks from a distance.
    What havens do is not to provide real estate for the 
construction of tent farms where you can conduct training 
seminars. What havens do is to protect insurgent organizations 
or terrorists from human intelligence penetration on the 
ground, which is the primary threat to their survival. The 
efficacy of our drone attacks turns, importantly, on our 
ability to find intelligence on where these organizations, and 
where these individuals, are located. That intelligence comes 
to an important degree--not wholly, but to an important 
degree--from human intelligence through penetration on the 
ground, which would be made extraordinarily difficult by the 
presence of a hostile government that actively prevented people 
from getting access to the members of the organization. That's 
why control of the government underneath the drones is so 
important to the efficacy of drone-based counterterrorism, and 
another reason why, again, I think the problem here is that the 
component elements of what people talk about when they talk 
about counterinsurgency are very difficult to pull out of 
context and make them work on their own without the rest.
    Senator Shaheen. Do you--you're nodding, Dr. Nagl, so I 
assume you agree with that.
    Dr. Nagl. I agree with everything Steve said. I'd like to 
disagree with Rory a little bit, though.
    What's happened over the past 8 years is that the Taliban 
has slowly gained strength, first--we chased it out of 
Afghanistan into Pakistan. It gained strength in Pakistan and 
started creeping across the border. And it has gained strength 
steadily in Afghanistan, and arguably continues to do so today, 
because of insufficient Afghan and international security 
forces on the Afghan side of the Durand Line. It gained 
strength in Pakistan, and achieved an extraordinary success, in 
March of this year, by taking the Swat River Valley, some 60 
miles from Islamabad. At that point, because of--in no small 
part because of very diligent and impressive diplomatic efforts 
by a number of members of the administration, the Pakistani 
Government, which had ceded the Swat River Valley to the 
Pakistani Taliban, decided to retake it. It did so in a very 
unsophisticated counterinsurgency campaign, but in a successful 
one.
    And it is important to note that the Pakistani Government 
has since continued to improve its cooperation with the United 
States, in both counterterrorism and counterinsurgency 
operations. Any withdrawal or retreat on our part from the 
conduct of counterinsurgency and counterterrorism would put 
that progress at risk, in my opinion.
    Senator Shaheen. Thank you.
    Senator Lugar. Thank you very much, Senator Shaheen.
    Senator Kaufman.
    Senator Kaufman. Thank you, Senator Lugar.
    I've tried to avoid, since I've been in the Senate, making 
statements before I make these. But I think the last two 
statements, by Dr. Biddle and Dr. Nagl, go a long way to 
explaining what I think is going on in Afghanistan.
    And the other thing I'd like to point out, which has not 
been raised, because I think it's a basic misunderstanding of 
the American people--and that is, we left Afghanistan in 2003. 
We spent almost as much money in Iraq in 2008 as we spent in 
Afghanistan from 2003-2008. This is not like we've had a failed 
policy. We had the Taliban beat before we left, which is one of 
our big problems, in terms of convincing the people in 
Afghanistan to be with us, because we left in 1990 and left in 
2009.
    We've talked a lot--I think there's a lot of confusion here 
about what you can do, in terms of ``build,'' if you don't do 
``clear'' and ``hold.'' There's been a number--I think, half a 
dozen comments, I think, here. So, Dr. Nagl, could you kind of 
just explain the difficulties--you did a little bit of it, in 
terms your Anbar--but, just the difficulties with doing the 
``build'' part, the economic development, the governance, and 
all those other things, when you do not ``clear'' and ``hold''?
    Dr. Nagl. Yes, sir.
    The peril of fighting an insurgency--in a conventional war, 
the hard part is killing your enemy. He's relatively easy to 
identify. You shoot the tanks that don't look like yours. In an 
unconventional war, an irregular war, a counterinsurgency 
campaign, the hard part is finding the enemy. And Steve has 
talked to the importance of having a good base, a government 
that is willing to allow you to conduct the kind of human 
intelligence that is essential to finding out who the 
insurgents are. If you have not provided that security network, 
the insurgents have freedom of action. You own only the ground 
you're standing on at any given point in time. And the 
insurgents, in particular, tend to operate through night 
letters. Very good article, in the Post on Monday about 
Kandahar, in which the Taliban has a great degree of control 
over what happens inside Kandahar, and they drop night letters 
through the front doors of people who are working with the 
United States, with the international community, with the 
Government of Afghanistan. And they tell them that, ``If you 
continue to work for the government, if you continue to work 
for the security forces, your family will be killed, you will 
be killed.'' And they follow up on enough of those to make that 
a credible threat. Those sorts of night letters, which happen 
in the absence of a stable security network provided by 
counterinsurgent forces, make real progress impossible.
    And, unfortunately, the Taliban is gaining strength in 
Kandahar. I believe that Kandahar is the next--is the locus of 
the Taliban-based insurgency inside Afghanistan. I believe it 
has to be cleared out. I believe that if it is not cleared out, 
any efforts we make to conduct economic development, to build 
Afghan security forces, will be crippled by the Taliban's 
ability to infiltrate and to destroy, at night, what we've 
built during the day.
    Senator Kaufman. Mr. Stewart, I agree with a great deal of 
what you said, and your insights, but I was a little confused 
about Bosnia. It seems to me, in Bosnia, we did the ``clear'' 
and ``hold,'' and then we did the ``build.'' And without the 
``clear'' and ``hold,'' which we need troops to do--combat 
troops, local--so, is Bosnia really a good model for how we 
should be preceding in Afghanistan, under any circumstance, or 
any of the circumstances that you, kind of, spelled out?
    Mr. Stewart. I think Bosnia is a symbol of hope. It's a 
symbol of how the complicated, messy engagement of the 
international community, and particularly the United States, 
can, in the long term, do good in a fragile conflict zone. But, 
it's not a good analogy, as you suggested, Senator, from the 
point of view of the huge differences between those countries. 
Afghanistan is almost the limit case. So fragile, so poor, so 
traumatized, so lacking in basic structure or education, that 
the kinds of advances, which, in Bosnia, at its best, really 
involved simply liberating Bosnian capacity, reinforcing--in 
some cases, simply reconstructing things that had been there 
before. In Afghanistan, honestly there wasn't much there 
before. And I suppose--I'm absolutely with a lot of these 
concepts, if they could be done. And the only thing that I'm 
saying is that, on the basis of my experience in Afghanistan, 
that progress is much more difficult in that country than one 
could imagine, that even were you able to ``clear'' and 
``hold,'' the ``building'' part, as somebody who runs a 
development project, always takes four times as long, and you 
always achieve a quarter as much as you hope, simply because of 
the lack of capacity on the ground. So, it's really a note of 
pragmatic caution.
    Thank you.
    Senator Kaufman. Great, thanks. That was my--Dr. Biddle, as 
you know, in town, here, there's a lot of talk of the kind of 
Somalia raid or having--I mean, the same thing went on in Iraq. 
We can leave Iraq, but we're going to leave 35,000 troops 
behind. And when we find a terrorist, we can--can you, kind of, 
talk a little bit about what the problems are of using a 
Somalia-type-raid approach as a policy in Afghanistan?
    Dr. Biddle. Yes. I think one source of insight is to look 
at Somalia itself. We have been, in principle, able to conduct 
raids from offshore in Somalia since the 1990s, and yet the 
country has continued to descend, and security, especially 
since foreign forces left Somalia fairly recently, has gotten 
worse, not better.
    We will occasionally be able to find a target, and we will 
occasionally be able to kill an important leader. That's a 
different thing from being able to do enough to prevent a place 
from getting worse rather than better, and to prevent people 
that we find threatening to us from operating there.
    And I think there are a variety of challenges facing this 
kind of counterterrorism from offshore approach. One of them, 
which I think is the most important, is the one I alluded to 
earlier, that counterterrorism from a distance centrally 
requires intelligence information on where the targets are. If 
you cede control of the government and you cede control of the 
country, you lose the ability to find the targets. If you can't 
find the targets, none of the rest matters.
    Second, if we're going to do this kind of attack with 
things like drones, for instance--drones are not wonder-
weapons; they are large, slow airplanes, without pilots, that 
tend to spend a long time over a specific point of territory. 
It doesn't take very much of an air force to clear the skies of 
American drones of the kind that we prefer to use for these 
kinds of campaigns.
    We depend on the host government in Pakistan for a variety 
of key enablers for the success, whatever it may be--and that's 
unclear--of this campaign. One of them is intelligence; another 
is a benign airspace of the kind that these drones are designed 
to require for successful operation.
    A third enabler that we require for this kind of campaign 
is basing that enables these drones to maintain the kind of 
dwell time over target that they require in order to be 
effective. At the moment, it has been reported that the 
Pakistanis provide the basing. Pakistan and Afghanistan are 
remote, landlocked countries for which basing is difficult to 
find.
    In general, I think what this suggests--for the case of 
standoff counterterrorism, in particular, but, by extension, to 
the larger collection of middle-way options that I understand 
are popular--is that they depend on a variety of things that 
you tend to lose if you take them out of the larger context and 
try and do them alone.
    Senator Kaufman. Thank you very much.
    I had--can I have one more question, since I'm the last 
one? I wanted to ask Dr. Stewart--and this is not, like, a 
devil's-advocate hypothetical; I mean, I really think this 
would happen.
    If, in fact, we leave Afghanistan, and if, in fact, the 
Taliban takes over Afghanistan, and if, in fact, the Pakistan 
Taliban does what they did before, is move out of Swat Valley 
and move toward Islamabad, with the support--nothing to worry 
them in their back--with the support of the Taliban from 
Afghanistan, isn't that--I mean, what do you think the 
probability of something like that happen? And that would be 
incredibly--as we know, would be incredibly destabilizing to 
Pakistan.
    Mr. Stewart. I think this is a very important worst-case 
scenario to end with, because, of course, that is the major 
problem. I mean, as Dr. Biddle said from the beginning, our 
real issue here is not actually counterterrorism, our real 
issue here is what kind of situation we have in Pakistan and 
what kind of situation we want in Pakistan.
    On the probabilities of it, I would say, personally, very, 
very low. I don't believe the Taliban in Afghanistan are in any 
position to take over the country, have planes, control the 
airspace, deny the United States from having bases in that 
country. So, I think we need to be realistic, that even a 
reduction in troops would be extremely unlikely to lead to a 
Taliban takeover of Afghanistan.
    But, if I follow it right through to your worst-case 
scenario, if you imagine that very worst-case situation, if you 
imagine even the possibility that they invite back in al-Qaeda, 
but, most importantly of all, if you imagine that somehow the 
Pakistani state, which--far stronger than the Afghan state--I 
mean, as they revealed in the Swat Valley, and as John was 
saying, I mean, who are really capable, when they want to, of 
showing real muscle. I mean, there's much more capacity in the 
Pakistan Government than the Afghan Government. It's largely a 
question of will. It's whether they want to do this. It's not 
that they lack the capacity to do these things. But, were 
Pakistan to fall, were there to be some sort equivalent of an 
Iranian revolution in Pakistan, that would have massive and 
very deleterious effects on the United States foreign policy 
position worldwide.
    So, I certainly think everybody in this room agrees that 
our No. 1 priority is to stop Pakistan going in that direction. 
The question is, How much relevance does our talk about 
counterterrorism and our talk about Afghanistan have to the 
question of the future of Pakistan? And my view is, perhaps not 
as much as we pretend.
    Thank you.
    Senator Kaufman. I want to thank all the panelists. This 
has been an excellent discussion.
    And I want to thank the ranking member and the chairman, in 
his absence, for having this hearing. I think it's been very, 
very helpful.
    Thank you.
    Senator Lugar. Well, I join you, Senator Kaufman, in 
thanking the chairman for scheduling this hearing.
    In a sense, all the members are reading, as you are, that 
General McCrystal has given documents to the administration, 
which they are reviewing. It's not clear how long they will 
analyze these documents before we know something about them. 
Beyond that, there at least is a hint that General McChrystal, 
after a certain indefinite period of time, may also forward 
some thoughts about troop strength and at that point, the 
administration may have a comment. But, this is why this 
hearing is especially important for us, in terms of 
constructive education and an exploration, really, of the 
background for whatever decisions may be made, because 
inevitably we will have some responsibility for that.
    And so, we thank each one of you for your assistance to our 
understanding, and we're genuinely appreciative, as Senator 
Kaufman and the chairman have stated.
    With that, the hearing is adjourned.
    [Whereupon, at 5 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
